The Federal Deposit Insurance Corporation (FDIC) is an independent
agency created by the Congress to maintain stability and confidence
in the nation’s banking system by insuring deposits, examining and
supervising financial institutions, and managing receiverships.
Approximately 6,558 individuals within seven specialized operating
divisions and other offices carry out the FDIC mission throughout
the country. According to most current FDIC data, the FDIC insured
more than $5.4 trillion in deposits in about 8,000 institutions,
of which the FDIC supervised approximately 4,940. Although the
balance of the Deposit Insurance Fund declined by $38.1 billion
during 2009, the Deposit Insurance Fund’s liquidity was enhanced by
prepaid assessments and the fund is well positioned to fund resolu-
tion activity in 2010 and beyond. Receiverships under FDIC control at
year-end 2009 totaled 187, with $41 billion of assets in liquidation.
                       Inspector General’s Statement




M
My office has faced a challenging work-
load over the past 6 months. While there
are signs of improvement in the economy
and financial sector, banks have continued
to fail. Under the Federal Deposit Insur-
ance Act, when failures of FDIC-supervised
                                                 partnered with staff from DSC in a day-long
                                                 collaborative forum to discuss MLR issues
                                                 and the many actions that the Corporation
                                                 is taking to enhance its supervision and
                                                 examination processes going forward.
                                                 Over this same time frame, we have directed
institutions result in a material loss to the    audit resources to the FDIC’s receivership
Deposit Insurance Fund, currently defined        and resolution activity resulting from bank
as a loss of the greater of $25 million or 2     failures and the heightened associated risks.
percent of the institution’s assets at the       In fact, the Corporation was handling 187
time of closing, my office is required to        receiverships with total assets in liquidation
perform a comprehensive review. Those            of about $41 billion at the end of the fourth
material loss reviews (MLR) determine            quarter 2009. In that regard, the Corpora-
the causes of failure and assess the FDIC’s      tion is retaining large volumes of assets as
supervision of the institution.                  part of purchase and assumption agree-
                                                 ments with institutions that are assuming
Our principal focus over the past 6 months
                                                 the insured deposits of failed institutions. A
has been on our heavy MLR workload. We
                                                 number of these agreements include shared
issued a total of 28 MLR reports during the
                                                 loss arrangements involving pools of assets
reporting period and had an additional
                                                 worth billions of dollars and that can extend
25 in process at the end of the reporting
                                                 up to 10 years. The Corporation is also using
period. The 28 failures reflect total institu-
                                                 structured sales through public/private
tion assets of nearly $17 billion and total
                                                 partnerships where billions of dollars are
losses to the Deposit Insurance Fund of $5.1
                                                 at stake. We continued to refine our audit
billion.                                         strategy to cover activities such as these
About a year ago, we conveyed our obser-         during the reporting period in the interest
vations on MLR trends to the FDIC Audit          of ensuring proper controls and indepen-
Committee and the Division of Supervision        dent oversight.
and Consumer Protection (DSC) based on           Our Office of Evaluations issued the results
our early work. That initial communication,      of its review of the FDIC’s loan modification
in conjunction with results of our MLR work      program during the reporting period and
throughout the past two reporting periods,       made recommendations for enhancements
has prompted the Corporation to take very        to that program. That office also initiated
responsive action to address issues we have      a joint review with the Department of the
surfaced and other supervisory matters           Treasury Office of Inspector General (OIG)
that senior management believes warrant          to examine supervisory events surrounding
additional attention.                            the failure of Washington Mutual Bank, a
Over the past 6 months, we have engaged          $307 billion failure, the largest to date. The
in continuous dialogue with the FDIC             joint review analyzed the actions of
Chairman, Vice Chairman, Audit Committee,        the primary federal regulator, the Office
and DSC senior management regarding the          of Thrift Supervision, and the FDIC’s role
results of our MLR work. Most recently we        in monitoring the institution as back-up

                                                                                              1
regulator and insurer. On April 16, 2010,         In closing, I want to acknowledge the dedi-
along with the Department of the Treasury         cated members of the FDIC OIG who perse-
Inspector General, I testified before the         vere in carrying out the Inspector General
Permanent Subcommittee on Investiga-              mission under demanding and extraordi-
tions, Committee on Homeland Security             nary circumstances. We all appreciate the
and Governmental Affairs, U.S. Senate, on         continued support of our stakeholders—the
the results of that work.                         Corporation, Congress, law enforcement
Our Office of Investigations continues to         agencies, Inspector General colleagues, and
play a lead role in the law enforcement           the public as we continue to address the
community’s efforts to combat various             unprecedented challenges facing us.
types of financial institution and mortgage
frauds. Our special agents are called upon
by U.S. Attorneys, the Federal Bureau of
Investigation, and others to assist in prose-
cuting white-collar crime that threatens the      Jon T. Rymer
integrity of the financial services industry.     Inspector General
Their success during the reporting period         April 30, 2010
resulted in 32 convictions, 47 indictments/
informations, and potential monetary recov-
eries of more than $61.2 million.
Last July, the House of Representatives
passed H.R. 3330, Improved Oversight by
Financial Inspectors General Act of 2009, to
increase the MLR threshold to $200 million
while also requiring some level of review
of all bank failures. As I sign this statement,
the Senate is considering S. 3217, Restoring
American Financial Stability Act of 2010.
A section of that legislation includes a
provision to establish the MLR threshold at
(1) $100 million from September 30, 2009
through December 31, 2010; (2) $75 million
for 2011; and (3) $50 million for 2012 and
beyond. We are hopeful that a change in the
threshold will provide a more meaningful
measure of materiality and allow us to be
able to resume more discretionary audit,
evaluation, and investigative coverage of
other important areas of risk at the FDIC.




2
T                               Table of Contents


Inspector General’s Statement.......................................................................1
Abbreviations and Acronyms.........................................................................4
Highlights and Outcomes.................................................................................5
Strategic Goal Areas
Supervision: Assist the FDIC to Ensure the Nation’s
Banks Operate Safely and Soundly.................................................................9
Insurance: Help the FDIC Maintain the Viability of the
Insurance Fund.................................................................................................... 27
Consumer Protection: Assist the FDIC to Protect
Consumer Rights and Ensure Customer Data
Security and Privacy........................................................................................... 30
Receivership Management: Help Ensure that the FDIC
Efficiently and Effectively Resolves Failing Banks and
Manages Receiverships.................................................................................... 33
Resources Management: Promote Sound Governance
and Effective Stewardship and Security of Human,
Financial, Information Technology, and Physical Resources.............. 39
OIG Resources Management: Build and Sustain a
High-Quality Staff, Effective Operations,
OIG Independence, and Mutually Beneficial
Working Relationships...................................................................................... 44
Reporting Requirements............................................................................... 49
Information Required by the Inspector General Act of 1978,
as Amended......................................................................................................... 50




                                                                                                                         3
    Abbreviations and Acronyms
    ADC	       acquisition, development, and construction
    BSA	       Bank Secrecy Act
    CAMELS	    Capital Adequacy, Asset Quality, Management, Earnings,
    	          Liquidity, and Sensitivity to Market Risk
    CDO	       collateralized debt obligation
    CIGIE	     Council of the Inspectors General on Integrity and Efficiency
    CRE	       commercial real estate
    DCAA	      Defense Contract Audit Agency
    DIF	       Deposit Insurance Fund
    DIT	       Division of Information Technology
    DRR	       Division of Resolutions and Receiverships
    DSC	       Division of Supervision and Consumer Protection
    ECIE	      Executive Council on Integrity and Efficiency
    ECU	       Electronic Crimes Unit
    FBI	       Federal Bureau of Investigation
    FDI Act	   Federal Deposit Insurance Act
    FDIC	      Federal Deposit Insurance Corporation
    FinCEN	    Financial Crimes Enforcement Network
    FISMA	     Federal Information Security Management Act
    GAO	       Government Accountability Office
    GPRA	      Government Performance and Results Act of 1993
    HAMP	      Home Affordable Modification Program
    IG	        Inspector General
    IRS CID	   Internal Revenue Service Criminal Investigations Division
    IT	        information technology
    LMP	       loan modification program
    LSA	       loss share agreement
    MLR	       material loss review
    NIST	      National Institute of Standards and Technology
    OCC	       Office of the Comptroller of the Currency
    OI	        Office of Investigations
    OIG	       Office of Inspector General
    OTS	       Office of Thrift Supervision
    PCA	       Prompt Corrective Action
    PCIE	      President’s Council on Integrity and Efficiency
    WaMu	      Washington Mutual Bank




4
                      Highlights and
                      Outcomes



T
The OIG works to achieve five strategic
goals that are closely linked to the FDIC’s
mission, programs, and activities, and one
that focuses on the OIG’s internal business
and management processes. These high-
                                                finalized to date. The Corporation has taken
                                                and continues to take a number of actions
                                                that address the concerns since that time.
                                                We continue a very cooperative working
                                                relationship with DSC on these matters.
lights show our progress in meeting these       During the reporting period, we completed
goals during the reporting period. Given        28 MLRs of institutions whose failures
our statutorily mandated MLR workload,          resulted in losses to the Deposit Insur-
most of our efforts during the reporting        ance Fund totaling $5.1 billion. In each
period have necessarily focused on our first    review, we analyzed the causes of failure
and second goals of assisting the Corpora-      and the FDIC’s supervision of the institu-
tion to ensure the safety and soundness         tion. Many of our initial MLR observations
of banks and the viability of the insurance     were confirmed in this more recent work,
fund. Based on the risks inherent in the        and we continued to share and supple-
resolution and receivership areas, we have      ment our views on trends in the failures
also recently shifted scarce available audit    and the FDIC’s supervision of the institu-
resources to conduct work in support of         tions during the reporting period. Ongoing
our fourth goal. We have not devoted as         work in support of this goal at the end of
much coverage as in the past in the two         the reporting period included 25 MLRs of
goal areas involving consumer protection        failed FDIC-regulated banks. With respect
and the FDIC’s internal operations during       to investigative work, as a result of coopera-
the past 6-month period. A more in-depth        tive efforts with U.S. Attorneys throughout
discussion of OIG audits, evaluations, inves-   the country, numerous individuals were
tigations, and other activities in pursuit of   prosecuted for financial institution fraud,
all of our strategic goals follows:             and we achieved successful results in
                                                combating a number of mortgage fraud
Strategic Goal 1
                                                schemes. Our efforts in support of mort-
Supervision: Assist the FDIC to Ensure
                                                gage fraud and other financial services
the Nation’s Banks Operate Safely and
                                                working groups also supported this goal.
Soundly
                                                Particularly noteworthy results from our
Our work in helping to ensure that the          casework include the sentencings of two
nation’s banks operate safely and soundly       brothers to 57 months and 46 months of
takes the form of audits, investigations,       incarceration and fines of over $3.2 million
evaluations, and extensive communication        for their role in a mortgage fraud scheme.
and coordination with FDIC divisions and        Two defendants also pleaded guilty in a
offices, law enforcement agencies, other        case involving the failure of Omni Bank,
financial regulatory OIGs, and banking          Atlanta, Georgia. The first was a former
industry officials. In early May 2009, we       executive vice president who caused mate-
conveyed to the FDIC Audit Committee and        rially false statements that overvalued bank
DSC our perspectives on the commonalities       assets to be made in Omni’s books and
in the eight MLR reports we had drafted or      records. The second defendant made false
                                                                                            5
statements to the FDIC and committed            Strategic Goal 3
identity theft to “short sell” properties       Consumer Protection: Assist the FDIC
mortgaged by the failed bank. Also of           to Protect Consumer Rights and Ensure
note during the reporting period was the        Customer Data Security and Privacy
guilty plea of Pamrapo Bank, Bayonne,           Audits and evaluations can contribute
New Jersey, to conspiracy to violate the        to the FDIC’s protection of consumers in
Bank Secrecy Act, a federal law enacted to      several ways. We did not devote substan-
prevent banks from being used to facili-        tial resources of this type to specific
tate and perpetuate criminal activity such      consumer protection matters during the
as narcotics trafficking, organized crime,      past 6-month period because most of those
terrorist financing, and other financial        resources were devoted to MLR work. Our
crimes.                                         Office of Investigations, however, supports
The Office of Investigations also continued     this goal through its work, particularly by
its close coordination and outreach with        way of its Electronic Crimes Unit (ECU). The
DSC, the Division of Resolutions and            ECU responded to instances where fraudu-
Receiverships (DRR), and the Legal Division     lent emails and facsimiles purportedly
by way of attending quarterly meetings,         affiliated with the FDIC were used to entice
regional training forums, and regularly         consumers to divulge personal informa-
scheduled meetings with DSC and the             tion and/or make monetary payments. The
Legal Division to review Suspicious Activity    ECU successfully deactivated 15 fraudu-
Reports and identify cases of mutual            lent email accounts, 8 Web sites, and 2
interest. (See pages 9-26.)                     fraudulent facsimile numbers used for such
                                                purposes. (See pages 30-32.)
Strategic Goal 2
Insurance: Help the FDIC Maintain the           Strategic Goal 4
Viability of the Insurance Fund                 Receivership Management: Help
                                                Ensure that the FDIC Efficiently and Effec-
Our MLR work fully supports this goal, as       tively Resolves Failing Banks and Manages
does the investigative work highlighted         Receiverships
above. In both cases, our work can serve to
prevent future losses to the fund by way of     We undertook several assignments in this
findings and observations that can help to      goal area during the reporting period. We
prevent future failures, and the deterrent      issued the results of our assessment of the
aspect of investigations and the ordered        FDIC’s implementation of loan modifica-
restitution that may help to mitigate an        tion programs at various institutions to
institution’s losses. A significant ongoing     modify “at-risk” mortgages and the internal
effort during the reporting period involved     controls in place over the program. We
our work with the Department of the Trea-       made five recommendations for program
sury OIG to determine the events leading to     enhancements, with which the FDIC agreed.
the need for the FDIC-facilitated transaction   Importantly we had also contracted with
involving Washington Mutual Bank (WaMu),        KPMG to perform a risk assessment and
including evaluating the Office of Thrift       develop audit programs for resolution and
Supervision’s supervision of WaMu and the       receivership activities. We prioritized audit
FDIC’s supervision and monitoring of WaMu       work to address the risks that KPMG identi-
in its role as back-up regulator and insurer.   fied as well as the OIG’s own assessment
(See pages 27-29.)                              of vulnerable program areas and began
                                                several assignments related to loss share
                                                agreements, structured sales, and proforma
                                                financial statements as a result. This work
                                                will continue in earnest going forward.
6
From an investigative standpoint, we             Strategic Goal 6
pursued the case of a former FDIC contract       OIG Resources Management: Build
employee at an FDIC receivership who             and Sustain a High-Quality Staff, Effective
pleaded guilty to disclosing confidential        Operations, OIG Independence, and Mutu-
information. We also continued to provide        ally Beneficial Working Relationships
forensic support at bank closings where          To ensure effective and efficient manage-
fraud was suspected and to coordinate with       ment of OIG resources, among other activi-
DRR to pursue concealment of assets inves-       ties, we continued realignment of the OIG
tigations related to the criminal restitution    investigative resources with FDIC regions,
that the FDIC is owed. (See pages 33-38.)        hired additional audit staff for resolution
                                                 and receivership work, and examined
Strategic Goal 5                                 staffing plans and budget resources to
Resources Management: Promote                    ensure our office is positioned to handle
Sound Governance and Effective Steward-          our increasing workload and risks to the
ship and Security of Human, Financial, IT, and   FDIC. We provided our Fiscal Year 2011
Physical Resources                               budget submission to the House and
In support of this goal area, we issued our      Senate Committees on Appropriations,
review of the FDIC’s information security        Subcommittees on Financial Services and
practices pursuant to the Federal Informa-       General Government.
tion Security Management Act (FISMA).            We continued to contract with qualified
We reported that the FDIC had imple-             firms to provide audit and evaluation
mented an information security program           services to the OIG to enhance the quality
addressing principal FISMA provisions and        of our work and the breadth of our exper-
other applicable standards. However, we          tise. We continued use of the Inspector
identified certain access control deficien-      General feedback form for the Office of
cies that presented a high risk of unauthor-     Material Loss Reviews, Office of Audits, and
ized disclosure of sensitive information or      Office of Evaluations that focuses on overall
compromise of information technology             assignment quality elements, including
resources. We identified nine steps to           time, cost, and value.
strengthen information security controls.        We encouraged individual growth through
We also conducted an audit of controls           professional development by employing a
over FDICconnect, a secure Web site that         number of college interns on a part-time
allows FDIC-insured institutions to conduct      basis to assist us, some of whom may be
business and exchange information with           returning permanently under the FDIC’s
the FDIC and made six recommendations            Student Career Experience Program. We
to address security control concerns.            also offered opportunities for OIG staff
                                                 to attend graduate schools of banking to
We promoted integrity in FDIC
                                                 further their expertise and knowledge of
internal operations through ongoing
                                                 the complex issues in the banking industry.
OIG Hotline referrals and coordina-
tion with the FDIC’s Ethics Office, as           Our office continued to foster posi-
warranted. (See pages 39-43.)                    tive stakeholder relationships by way of
                                                 Inspector General and other OIG execu-
                                                 tive meetings with senior FDIC executives;
                                                 presentations at Audit Committee meet-
                                                 ings; congressional interaction; and coordi-
                                                 nation with financial regulatory OIGs, other
                                                 members of the Inspector General commu-


                                                                                               7
nity, other law enforcement officials, and          tailor OIG work accordingly. In keeping with
the Government Accountability Office.               the Reports Consolidation Act of 2000, we
The OIG participated in corporate diversity         shared the OIG’s perspectives on risks and
events, and we maintained and updated               related management and performance
the OIG Web site to provide easily acces-           challenges facing the FDIC for inclusion in
sible information to stakeholders interested        the Corporation’s annual report. (See pages
in our office and the results of our work.          44-47.)
In connection with SAS 99 and the annual
financial audit of the FDIC’s funds, we
provided comments on the risk of fraud
at the FDIC to the Government Account-
ability Office. We provided the OIG’s 2009
statement of assurance to the Chairman
regarding the OIG’s efforts to meet internal
control requirements. We also partici-
pated regularly at corporate meetings of
the National Risk Committee to monitor
emerging risks at the Corporation and



                                  Significant Outcomes
                                  (October 2009– March 2010)
                                  Material Loss Review, Audit, and Evaluation Reports Issued                       32
                                  Nonmonetary Recommendations                                                      11
                                  Investigations Opened                                                            40
                                  Investigations Closed                                                            18
                                  OIG Subpoenas Issued                                                             10
                                  Judicial Actions:
                                  	   Indictments/Informations                                                     47
                                  	   Convictions                                                                  32
                                  	   Arrests                                                                      23
                                  OIG Investigations Resulted in:
                                  	   Fines of                                                                 $23,600
                                  	   Restitution of                                                       $39,273,640
                                  	   Asset Forfeiture of                                                  $21,939,103
                                  	   Other Monetary Recoveries of                                                  0
                                  Total                                                                    $61,236,343
                                  Cases Referred to the Department of Justice (U.S. Attorney)                      36
                                  Cases Referred to FDIC Management                                                 0
                                  OIG Cases Conducted Jointly with Other Agencies                                 116
                                  Hotline Allegations Referred                                                     26
                                  Proposed Regulations and Legislation Reviewed                                     2
                                  Proposed FDIC Policies Reviewed                                                   9
                                  Responses to Requests and Appeals Under the Freedom of Information Act            9
8
Strategic Goal 1


                                                                     1
The OIG Will Assist the FDIC to
Ensure the Nation’s Banks Operate
Safely and Soundly




T
The Corporation’s supervision program
promotes the safety and soundness of
FDIC-supervised insured depository
institutions. The FDIC is the primary federal
regulator for approximately 4,940 FDIC-
insured, state-chartered institutions that
                                                   and authority to examine banks for safety
                                                   and soundness relates to compliance with
                                                   the Bank Secrecy Act (BSA), which requires
                                                   financial institutions to keep records and
                                                   file reports on certain financial transactions.
are not members of the Federal Reserve             An institution’s level of risk for potential
System (generally referred to as “state non-       terrorist financing and money laundering
member” institutions). The Department of           determines the necessary scope of a BSA
the Treasury (the Office of the Comptroller        examination.
of the Currency (OCC) and the Office of
Thrift Supervision (OTS)) or the Federal           In the event of an insured depository insti-
Reserve Board supervise other banks and            tution failure, the Federal Deposit Insur-
thrifts, depending on the institution’s            ance (FDI) Act requires the cognizant OIG
                                                   to perform a review when the DIF incurs
charter. As insurer, the Corporation also has
                                                   a material loss. A loss is considered mate-
back-up examination authority to protect
                                                   rial to the insurance fund if it exceeds $25
the interests of the Deposit Insurance
                                                   million and 2 percent of the failed institu-
Fund (DIF) for about 3,060 national banks,
                                                   tion’s total assets. The FDIC OIG performs
state-chartered banks that are members
                                                   the review if the FDIC is the primary
of the Federal Reserve System, and savings
                                                   regulator of the institution. The Depart-
associations.
                                                   ment of the Treasury OIG and the OIG at
The examination of the institutions                the Board of Governors of the Federal
that it regulates is a core FDIC function.         Reserve System perform reviews when their
Through this process, the FDIC assesses            agencies are the primary regulators. These
the adequacy of management and internal            reviews identify what caused the material
control systems to identify, measure,              loss, evaluate the supervision of the federal
monitor, and control risks; and bank               regulatory agency (including compliance
examiners judge the safety and soundness           with the Prompt Corrective Action (PCA)
of a bank’s operations. The examination            requirements of the FDI Act), and gener-
program employs risk-focused supervision           ally propose recommendations to prevent
for banks. According to examination policy,        future failures. During the past 6-month
the objective of a risk-focused examina-           reporting period, 86 FDIC-insured institu-
tion is to effectively evaluate the safety         tions failed. Thirty-three of these triggered
and soundness of the bank, including the           the need for the FDIC OIG to conduct an
assessment of risk management systems,             MLR.
financial condition, and compliance with           During 2009, the number of institutions
applicable laws and regulations, while             on the FDIC’s “Problem List” also rose to its
focusing resources on the bank’s highest           highest level in 16 years. As of December
risks. Part of the FDIC’s overall responsibility   31, 2009, there were 702 insured institu-


                                                                                                   9
tions on the “Problem List,” indicating a         the banking system. When investigating
probability of more failures to come and an       instances of financial institution fraud, the
increased asset disposition workload. Total       OIG also defends the vitality of the FDIC’s
assets of problem institutions increased          examination program by investigating
to $403 billion as of year-end 2009. Given        associated allegations or instances of
these numbers, many challenging institu-          criminal obstruction of bank examinations
tion failures are likely in the months ahead.     and by working with U.S. Attorneys’ Offices
                                                  to bring these cases to justice.
The OIG’s audits and evaluations are
generally designed to address various             The OIG’s investigations of financial institu-
aspects of the Corporation’s supervision          tion fraud currently constitute about 89
and examination activities. Through their         percent of the OIG’s investigation caseload.
investigations of financial institution fraud,    The OIG is also committed to continuing
the OIG’s investigators also play a critical      its involvement in interagency forums
role in helping to ensure the nation’s banks      addressing fraud. Such groups include
operate safely and soundly. Because fraud         national and regional bank fraud, check
is both purposeful and hard to detect, it         fraud, mortgage fraud, cyber fraud, identity
can significantly raise the cost of a bank        theft, and anti-phishing working groups.
failure, and examiners must be alert to the       Additionally, the OIG engages in industry
possibility of fraudulent activity in financial   outreach efforts to keep financial institu-
institutions.                                     tions informed on fraud-related issues and
                                                  to educate bankers on the role of the OIG in
The OIG’s Office of Investigations (OI) works
                                                  combating financial institution fraud.
closely with FDIC management in DSC and
the Legal Division to identify and investi-       To assist the FDIC to ensure the nation’s
gate financial institution crime, especially      banks operate safely and soundly, the OIG’s
various types of fraud. OIG investigative         2010 performance goals are as follows:
efforts are concentrated on those cases             •	Help ensure the effectiveness and
of most significance or potential impact              efficiency of the FDIC’s supervision
to the FDIC and its programs. The goal, in            program.
part, is to bring a halt to the fraudulent
conduct under investigation, protect the            •	Investigate and assist in prosecuting
FDIC and other victims from further harm,             BSA violations, money laundering,
and assist the FDIC in recovery of its losses.        terrorist financing, fraud, and other
Pursuing appropriate criminal penalties               financial crimes in FDIC-insured institu-
not only serves to punish the offender but            tions.
can also deter others from participating
in similar crimes. Our criminal investiga-        OIG Work in Support of Goal 1
tions can also be of benefit to the FDIC in
                                                  The OIG issued 28 reports during the
pursuing enforcement actions to prohibit
                                                  reporting period in support of our strategic
offenders from continued participation in
                                                  goal of helping to ensure the safety and

10
OIG Identifies MLR Trends
During the prior reporting period, the OIG identified and shared with the Audit
Committee and DSC our perspectives on MLR trends. Our initial observations on the
common characteristics of failures were based on six completed and two draft MLR
reports.
Based on that early work, we suggested that greater consideration of risk in assigning
Capital Adequacy, Asset Quality, Management, Earnings, Liquidity, and Sensitivity to
Market Risk (CAMELS) component and composite ratings in addition to reliance on
current financial condition appeared to be needed. Risky behaviors that did not seem to
have had a meaningful impact on CAMELS ratings included: pursuit of aggressive growth
in commercial real estate and acquisition, development, and construction (ADC) loans;        soundness of the nation’s banks. These
excessive levels of asset concentration with little risk mitigation; reliance on wholesale   reports communicated the results of MLRs.
funding to fund asset growth; ineffective leadership from bank boards of directors and       Ongoing audit work in support of the goal
management; inadequate loan underwriting and lack of other loan portfolio and risk           area as of the end of the reporting period
management controls, including appropriate use of interest reserves; allowance for loan      included 25 MLRs to determine the causes
and lease losses methodology and funding; and compensation arrangements that were            for the failures of FDIC-supervised financial
tied to quantity of loans rather than quality.                                               institutions and assess the FDIC’s supervi-
We also identified special issues with regard to “de novo” institutions, and we empha-       sion of the institutions.
sized the need to monitor business plans closely; consider growth exceeding the plan
as a risk to be managed; and ensure that management expertise and operations/                FDIC Actions to Address MLR Trends
administrative structures kept pace with asset growth. We further observed that PCA did      and Related Supervisory Issues
not appear to have prevented failure of the institutions we had reviewed to date. Also,
examiners generally had not used the non-capital provisions of PCA to curtail activities     The FDIC’s actions, generally taken to
that contributed to losses to the DIF.                                                       address the recurring characteristics in
                                                                                             institution failures, have been manifested in
MLR work over the past year has validated the earlier issues we identified. Other issues     a “Forward Looking Supervision” approach
contributing to institution failures and losses have surfaced in the 28 material loss        that focuses on lessons learned from the
reviews conducted during the reporting period. These include, for example, banks that        economic crisis, including common risk
had purchased loan participations—sometimes out-of-territory— in order to rapidly            characteristics noted at problem and failed
grow the loan portfolio or as a change in strategic business direction. In some cases, the   institutions. DSC recently completed a
banks did not conduct adequate due diligence or adequately administer these loans            training initiative on this approach for its
after purchase. We have also seen instances of significant losses related to collateral-     entire supervisory workforce. The training
ized debt obligations, collateralized mortgage obligations, and government-sponsored         emphasizes the rapidly changing financial
enterprise stocks such as Fannie Mae and Freddie Mac preferred stock. In some cases          environment and stresses the importance
as well, banks had concentrations in large borrowing relationships and may not have          of considering a financial institution’s
properly assessed the borrower’s global financial condition, including the impact that       high-risk practices in addition to the bank’s
problems on projects financed at other institutions might have on the borrower’s repay-      financial condition when assessing risk,
ment capacity. With respect to bank Boards and management, we noted in some of our           assigning CAMELS ratings, and determining
MLRs instances where there was a lack of sufficient expertise or an inability to deal with   when and what type of supervisory or
a sudden change in business strategy, for example purchasing complex credit products         enforcement action to recommend.
without knowledgeable staff on board to handle these products.
                                                                                             In addition to the consideration of risk, the
The OIG has continued to communicate these and other issues to DSC senior manage-            FDIC has established a Corporate Perfor-
ment and staff by way of numerous visits to FDIC regional offices and through construc-      mance Objective related to implementing
tive meetings and dialogue with DSC representatives throughout the MLR process.              or requesting a corrective action program
Additionally, during the reporting period, in monthly Audit Committee meetings, the          for financial institutions in a timely manner,
OIG presented the results of all completed MLRs, and that forum has continued to focus       requesting or imposing supervisory and/or
high-level attention on evolving MLR issues. Chairman Bair also convened a DSC working       enforcement actions for troubled finan-
group that meets regularly for the purpose of addressing emerging supervisory issues.        cial institutions, and monitoring financial
We are committed to continuing to refine our observations on MLR trends and issues           institutions’ compliance with supervisory
and sharing perspectives with FDIC management and other stakeholders.


                                                                                                                                         11
and/or enforcement actions and corrective      We will continue to coordinate our MLR
programs. In that connection, in January       work with DSC and monitor actions taken
2010, DSC issued guidance that defines         to address supervisory trends and issues.
a standard approach for communicating
matters requiring Board attention (e.g.,       Material Loss Review Results During
examiner concerns and recommendations)         the Reporting Period
in examination reports. The guidance states    In accordance with the FDI Act, the audit
that examination staff should request a        objectives for each of the 28 reviews we
response from the institution regarding        conducted during the reporting period
the action that it will take to mitigate the   were to (1) determine the causes of the
risks identified during the examination and    financial institution’s failure and resulting
correct noted deficiencies. This approach      material loss to the DIF and (2) evaluate
provides examiners with another tool to        the FDIC’s supervision of the institution,
hold Board and management accountable          including implementation of the PCA
for improved performance and should also       provisions of section 38. The overall results
facilitate effective supervisory follow-up.    of this body of work are discussed below.
The FDIC has also taken specific actions       It is important to note that while we have
related to conducting interim visitations      an obligation to look back and report on
                                               the causes of failure and the FDIC’s supervi-
and accelerating on-site examinations, and
                                               sion of the failed institutions, our reports
enhancing off-site monitoring activities.
                                               also acknowledge in many cases and as
In addition, the FDIC has extended the de
                                               appropriate the actions that DSC is taking,
novo period from 3 to 7 years and issued
                                               as referenced above, to address the issues
revised guidance related to de novo banks
                                               raised in our MLR reports.
including, but not limited to, the review of
de novo bank deposit insurance application     Causes of Failure and Material Loss
processing, reviewing a bank’s compliance
with its business plan, and determining        Our work during the reporting period
whether a financial institution has materi-    showed that most institutions failed
ally deviated from its business plan.          because their Boards of Directors and
                                               management did not implement effec-
Other DSC actions to address supervisory       tive risk management practices to address
concerns include communications related        rapid growth and significant concentra-
to using noncapital aspects of PCA provi-      tions in certain loan types—chief among
sions, monitoring exposures to government      those commercial real estate and acqui-
assistance programs, supervising institu-      sition, development, and construction
tions with significant investments in trust-   loans. Further, weaknesses in loan under-
preferred collateralized debt obligations,     writing and credit administration practices
and interest rate restrictions.                contributed to many of the failures. Failed
                                               institutions often exhibited a growing


12
dependence on volatile, non-core funding             tional supervisory oversight and regulatory
sources, such as brokered deposits, Federal          controls, including the development and
Home Loan Bank advances, and Internet                maintenance of a current business plan and
certificates of deposit. In some cases there         increased examination frequency. We noted
were failures to manage key risks in the             in a number of these cases that institutions
loan portfolio, including individual credit          had deviated from originally approved
concentrations and loans with high loan-             business plans and engaged in activities
to-value ratios, or to implement effective           that contributed to problems at a later time.
loan grading systems and methodolo-                  While most of the institutions that were
gies for allowance for loan and lease loss           the subject of our MLRs failed, in a general
computations.                                        sense, for very similar reasons, it is inter-
When the various real estate markets began           esting to note some unique features of
to deteriorate, generally beginning in 2007,         certain failures. To illustrate, the following
weaknesses in the institutions’ risk manage-         discussion summarizes the causes of failure
ment practices quickly translated into a             for selected institutions that we reviewed
rapid and significant deterioration in the           during the reporting period. These failures
asset quality of the institutions’ loan port-        are geographically dispersed throughout
folios. The associated losses and provisions         the United States and caused losses to the
depleted capital and earnings and signifi-           DIF ranging from $27 million to $693.8
cantly impaired the institutions’ liquidity. In      million.
some cases, these institutions did not have          Strategic Capital Bank, Champaign,
comprehensive liquidity contingency plans            Illinois. Estimated loss to the DIF: $172.3
in place. In several cases, also contributing        million. Strategic Capital’s failure can be
to the losses were incentive compensa-               attributed to the Board of Directors’ and
tion plans that rewarded loan volume and             management’s speculative and ill-timed
under which certain bank officers gener-             growth strategy involving high-risk assets
ated the vast majority of poor quality loans.        and volatile funding that began subse-
In some instances as well, recommenda-               quent to the completion of the Illinois
tions that examiners had made earlier went           Department of Financial and Professional
unheeded by bank boards of directors                 Regulation’s 2007 on-site examination.
and management. In other cases, actions              Strategic Capital’s selection of risk in the
taken by the Board and management to                 fourth quarter of 2007 and the first quarter
address examiner concerns were not timely            of 2008 proved to be poor. Further, Stra-
or adequate in preventing an institution’s           tegic Capital’s rapid growth strategy was
failure.                                             in contravention to long-standing super-
Importantly, six of the MLRs from the                visory guidance related to commercial real
reporting period related to de novo institu-         estate (CRE) concentrations and securities.
tions–that is, institutions that for their first 3   In a short span of time, market conditions
years in operation were subject to addi-             rapidly deteriorated, and Strategic Capital


                                                                                                 13
faced credit downgrades associated with           associated losses and provisions depleted
its investment portfolio and encountered          Integrity-Jupiter’s capital, rendering the
escalating loan problems that it had not          institution insolvent. The Florida Office
anticipated. Ultimately, Strategic Capital        of Financial Regulation closed Integrity-
did not have enough capital to adequately         Jupiter on July 31, 2009 because the institu-
support its new risk profile and could not        tion was unable to raise sufficient capital
absorb the losses.                                to support its operations or find a suitable
                                                  acquirer.
Integrity Bank, Jupiter Florida. Esti-
mated loss to the DIF: $36.9 million.             First Bank of Beverly Hills, Calabasas,
Integrity failed primarily because of inef-       California. Estimated loss to the DIF:
fective oversight by the institution’s Board      $394 million. First Bank failed because
and management. Turnover and extended             its Board and management did not
vacancies in the positions of President and       adequately manage the risks associated
Chief Executive Officer and Senior Lending        with the institution’s heavy concentrations
Officer during the short life of the institu-     in CRE and ADC loans and investments in
tion contributed to the weak oversight. In        mortgage backed securities. In the fall of
addition, the Board and management did            2006, First Bank initiated an aggressive ADC
not effectively manage the risks associated       lending program that focused on rapidly
with the institution’s heavy concentration        growing real estate markets in California
in ADC loans. Weak ADC loan underwriting          and Nevada. As part of its ADC lending
and administration, particularly with             program, First Bank purchased approxi-
respect to out-of-territory loan participa-       mately $117 million in loan participations
tions acquired from Integrity-Alpharetta,         without performing proper due diligence
Georgia, were contributing factors in             and originated over $70 million in loans
Integrity-Jupiter’s failure. The lack of effec-   without adequate underwriting and admin-
tive Board and management oversight,              istration. In addition, First Bank maintained
together with a significant concentration         a high liquidity risk profile in the years
in risky ADC loans, made the institution          leading to its failure because it relied almost
vulnerable when the Florida and Georgia           exclusively on costly and potentially volatile
real estate markets began to decline              wholesale funding sources consisting
in 2007. Notably, a Board dispute that            primarily of brokered deposits and Federal
began in 2007 over control of the institu-        Home Loan Bank borrowings to support its
tion presented a significant distraction          real estate lending and investing activities.
when the Board’s undivided attention was          First Bank’s concentrations in CRE and
needed on the institution’s deteriorating         ADC loans, coupled with its heavy reliance
financial condition. By 2008, the quality         on wholesale funding sources, made the
of Integrity-Jupiter’s loan portfolio had         institution particularly vulnerable when its
become critically deficient, with additional      primary lending markets began to dete-
deterioration continuing into 2009. The           riorate in early 2007. Further, First Bank’s


14
Board paid dividends in 2007 that resulted        tion in the loan portfolio, severely eroded
in negative retained earnings and a reduc-        the bank’s capital. Additionally, losses
tion of capital at a time when the institu-       associated with Federal National Mortgage
tion had an elevated risk profile. By 2008,       Association securities contributed to inad-
weaknesses in First Bank’s risk management        equate capital levels and reduced earnings.
practices had translated into a significant       The Nevada Financial Institution Division
decline in the quality of the institution’s       closed Great Basin due to the bank’s Signifi-
loan portfolio and mortgage backed securi-        cantly Undercapitalized position.
ties. The losses and provisions associated        Founders Bank, Worth Illinois, and Rock
with this decline depleted the institution’s      River Bank, Oregon, Illinois. Estimated
earnings and capital, and significantly           loss to the DIF: $173 million and $27
impaired its liquidity position. The Cali-        million, respectively. Founders and Rock
fornia Department of Financial Institutions       River were part of a complex chain banking
closed First Bank because it was unable to        organization consisting of nine FDIC-
raise sufficient capital to support its opera-    insured institutions under the collective
tions or find a suitable acquirer.                control of the Lyle Campbell family and
Great Basin Bank of Nevada, Elko,                 their related interests (referred to as the
Nevada. Estimated loss to the DIF: $39.4          Campbell Group). All of the institutions
million. Great Basin failed because its           within the Campbell Group were consid-
Board did not ensure that bank manage-            ered affiliates based on section 23A of the
ment identified, measured, monitored,             Federal Reserve Act made applicable to
and controlled the risk associated with the       insured nonmember banks by section 18(j)
institution’s lending activities. Specifically,   of the FDI Act, which establishes certain
Great Basin’s Board and management failed         requirements, restrictions, and prohibitions
to adequately assess the risk associated          with regard to transactions among the
with expanding the loan portfolio through         banks.
purchases of out-of-territory participa-          Founders and Rock River failed primarily
tion loans, particularly from 2006 through        because their Boards and management
2008. The bank also lacked effective risk         did not effectively manage the risk associ-
management controls for its CRE loan port-        ated with significant investments in risky
folio. Additionally, poor risk management         collateralized debt obligations (CDO).
practices negatively impacted the bank’s          Between the fourth quarter of 2005
ability to effectively manage operations in a     and July 2007, Founders and Rock River
declining economic environment.                   purchased approximately $41 million and
The weaknesses in Great Basin’s loan port-        $7.7 million, respectively, in CDOs without
folio were exacerbated by a downturn in           establishing and implementing appro-
the bank’s market area and out-of-territory       priate risk management controls. Of note,
locations. Declining earnings, resulting          neither institution performed appropriate
from high provision expenses for deteriora-       pre-purchase analysis or established formal


                                                                                             15
investment policies that addressed CDOs         and ADC lending that included out-of-area
before investing in these securities. In        loan participations and brokered loans. This
addition, the institutions did not establish    growth, in turn, depended upon increas-
prudent limits on their CDO investments,        ingly volatile funding sources, including an
nor did they effectively monitor or manage      extensive reliance on brokered and large
the securities after purchase. When the         time deposits, which became restricted as
downturn in the banking industry occurred       economic conditions deteriorated. Overall
in 2008, the CDOs quickly lost value and        risks were exacerbated by the bank’s poor
became illiquid, threatening the viability of   loan underwriting and credit administra-
both institutions. Also contributing to the     tion and excessive and inappropriate use of
failures of Founders and Rock River was a       interest reserves. In addition, staffing in key
deterioration in the institutions’ CRE and      operational areas did not keep pace with
ADC loan portfolios. Both institutions had      the continued growth and complexity of
CRE concentrations that included out-of-        the institution’s loan portfolio. According to
area ADC loan participations for which          examiners, also contributing to the failure
the institutions had not performed proper       was the bank President’s considerable
due diligence. Weaknesses in the ADC loan       influence over the bank’s growth strategy
participations, together with a concentra-      and operations and a compensation
tion in CRE loans, made both institutions       agreement that provided an incentive to
vulnerable to a sustained downturn in the       pursue increased risk and growth. Declining
real estate market. Although not a primary      earnings, resulting from the deteriorating
cause of failure, Founders and Rock River       loan quality in the bank’s portfolio, severely
also funded poorly underwritten loans           eroded the institution’s capital. Further
to insiders of the Campbell Group and           evidence to the cause of Mutual Bank’s
to outside officers of the failed Strategic     failure can be seen in certain financial indi-
Capital Bank that added to the institu-         cators. Specifically, between the 2007 and
tions’ losses. The Illinois Department of       2008 examinations, the bank’s adversely
Financial and Professional Regulation           classified assets increased from $54 million
closed Founders and Rock River because          to $300 million; loans related to property
the institutions were operated in an unsafe     foreclosures increased from $477,000 to
and unsound manner and were unable to           $19.2 million, an increase of almost 4,000
raise sufficient capital to provide adequate    percent; and net charge-offs of CRE loans
protection for their depositors.                increased from $8 million at year-end 2007
                                                to $57 million by year-end 2008. Ultimately,
Mutual Bank, Harvey, Illinois. Estimated
                                                the Illinois Department of Financial and
loss to the DIF: $693.8 million. Mutual
                                                Professional Regulation closed Mutual Bank
Bank’s Board and management failed to
                                                in July 2009 due to insufficient capital to
provide the necessary oversight to effec-
                                                support the bank’s operations.
tively manage the risks associated with an
aggressive growth strategy centered in CRE



16
American Southern Bank, Kennesaw,               and monitored incentive compensation
Georgia. Estimated loss to the DIF:             program under which one bank official
$41.7 million. American Southern, a de          generated the vast majority of the poor
novo institution, failed because its Board      quality loans. Westsound’s viability was also
of Directors and management materi-             impacted by negative publicity associated
ally deviated from its business plan by         with a shareholder lawsuit filed in October
pursuing a strategy of growth centered          2007, which prompted depositors to
in ADC lending, while excessively relying       leave the bank. The state’s Department of
on wholesale funding sources to fund            Financial Institutions ultimately negotiated
that growth. Further, American Southern         a return of the bank’s charter with West-
management did not exercise proper              sound’s Board and management before the
oversight of the bank’s significant concen-     bank became critically undercapitalized or
trations in ADC loans. The weaknesses in        experienced a liquidity crisis, and closed
American Southern’s loan portfolio were         the institution on May 8, 2009.
accentuated by a downturn in the bank’s
market area. Declining earnings resulting       The FDIC’s Supervision of the Failed
from the deteriorating quality of loans in      Institutions
American Southern’s ADC loan portfolio
                                                We reported quite consistently in the
severely eroded the bank’s capital. In turn,
                                                28 MLRs issued during the reporting
the bank’s liquidity became deficient as
                                                period that the FDIC, in conjunction with
wholesale funding sources that American
                                                other cognizant state banking authori-
Southern used to fund its asset growth
                                                ties, provided ongoing supervision of
were restricted.
                                                the institutions by way of risk manage-
Westsound Bank, Bremerton, Wash-                ment examinations, visitations, and other
ington. Estimated loss to the DIF: $106.4       offsite monitoring activities. Consistently,
million. Westsound failed because its           FDIC examiners identified and reported
board of directors and management did           on management weaknesses associ-
not implement risk management practices         ated with concentrations and other risky
commensurate with rapid asset growth and        practices and made recommendations
a loan portfolio with significant concen-       for improvements to address those weak-
trations in higher-risk ADC loans. Specifi-     nesses. However, examiners did not always
cally, weak loan underwriting and credit        ensure that bank management effectively
administration practices associated with        responded to such recommendations, and
ADC concentrations became apparent as           frequently concluded that the institutions’
the local real estate market deteriorated. As   overall financial condition was sound and
loan losses related to the ADC loans were       management was appropriately managing
recognized, capital eroded and liquidity        additional risks associated with high
became strained. A contributing factor to       concentrations and other risky practices.
the losses was an inadequately designed         We pointed out that in retrospect, more


                                                                                           17
proactive supervisory action at earlier           can be those very individuals entrusted
examinations may have been prudent                with governance responsibilities at the
given the risks associated with the various       institutions—directors and bank officers. In
activities of the failed institutions. With the   other cases, individuals providing profes-
benefit of hindsight, our reports identified      sional services to the banks, others working
critical junctures in the institution’s super-    inside the bank, and customers themselves
visory history where additional attention         are principals in fraudulent schemes.
could have been paid to the risks that were
                                                  The cases discussed below are illustra-
present or emerging. We reported that
                                                  tive of some of the OIG’s most important
earlier and more proactive supervisory
                                                  investigative success during the reporting
action may have influenced the institutions’
                                                  period. These cases reflect the cooperative
Boards and management to constrain their
                                                  efforts of OIG investigators, FDIC divisions
risk-taking, thereby mitigating, to some
                                                  and offices, U.S. Attorneys’ Offices, and
extent, the losses incurred by the DIF.
                                                  others in the law enforcement community
With respect to the de novo institutions,         throughout the country.
we concluded that coverage of de novo
                                                  About 41 percent of our financial institution
business plan deviations could have been
                                                  fraud cases address the increased incidence
improved. In that regard, as referenced
                                                  of mortgage fraud. Other cases during
earlier, the Corporation took steps to
                                                  the reporting period involve bank fraud,
extend the de novo period and revised its
                                                  obstructing the examination of a financial
guidance related to monitoring of business
                                                  institution, embezzlement, identity theft,
plans.
                                                  conspiracy to commit BSA violations, and
With regard to PCA, we determined that the        money laundering. The OIG’s success in all
FDIC had properly implemented applicable          such investigations contributes to ensuring
PCA provisions of section 38 based on             the continued safety and soundness of the
the supervisory actions taken. However in         nation’s banks.
many cases, PCA’s effectiveness in miti-
gating the losses to the DIF was limited          Successful Mortgage Fraud Cases
because PCA is a lagging indicator, and did       Our office has successfully investigated
not always require action until an institu-       a number of mortgage fraud cases over
tion was at serious risk of failure.              the past 6 months, several of which are
                                                  described below. Perpetrators of these
Successful OIG Investigations
                                                  mortgage schemes are receiving stiff penal-
Uncover Financial Institution Fraud               ties and restitution orders. Our involve-
As mentioned previously, the OIG’s Office         ment in such cases is supplemented by our
of Investigations’ work focuses largely on        participation in a growing number of mort-
fraud that occurs at or impacts financial         gage fraud task forces. Mortgage fraud has
institutions. The perpetrators of such crimes     continued to take on new characteristics in


18
the current economic crisis as perpetrators     have to make payments on the mortgages
seek to take advantage of an already bad        or take possession of the houses. Once
situation. Such illegal activity can cause      the buyers were signed up, loan officers
financial ruin to homeowners and local          generated false documents for the buyers
communities. It can further impact local        to support inflated income and asset state-
housing markets and the economy at large.       ments in the mortgage application.
Mortgage fraud can take a variety of forms
                                                While the so-called buyers were being
and involve multiple individuals. We work
                                                recruited, the unlicensed agent identi-
these and other cases based on a variety of
                                                fied run-down properties on sale within
excellent sources of referral and with part-
                                                the range of $250,000 to $500,000. Then,
ners both internal and external to the FDIC,
                                                another individual signed sales contracts
as shown in the write-ups that follow.
                                                to buy these properties, but by the time
Unlicensed Real Estate Agent and Two            of the closings, he had assigned his rights
Attorneys Sentenced for Mortgage Fraud          to purchase the properties to the straw
                                                buyers for fees totaling up to $600,000.
During the reporting period, an unlicensed      The straw buyers’ mortgages - which had
real estate agent and two attorneys were        been secured through fraudulently inflated
sentenced in the United States District         financial statements - covered both the
Court for the Eastern District of New York      sales prices and the assignment fees. The
for their involvement in a mortgage fraud       banks and mortgage companies, however,
scheme. The unlicensed real estate agent        were never made aware of the assignments
was sentenced to one month of imprison-         or the true market value of the purchased
ment, 60 months of probation, and 500           properties. The mortgage proceeds were
hours of community service. The attorneys       wired into the attorneys’ trust accounts and
were sentenced to 6 months of imprison-         subsequently distributed to others involved
ment and 36 months of probation. Each           in the scheme.
defendant was ordered to pay restitution in     Source: New York Mortgage Fraud Working Group, and
the amount of $5.1 million for their involve-   multiple Suspicious Activity Reports. Responsible Agen-
ment with other individuals who were            cies: The investigation was conducted by the FDIC OIG
charged with conspiracy to commit bank          and the Federal Bureau of Investigation (FBI). Prosecuted
                                                by the U.S. Attorney’s Office, Eastern District of New York.
fraud in a May 2008 indictment.
According to the indictment, the unli-          Two Brothers Sentenced for Their Roles
censed agent and other individuals              in a Mortgage Fraud Scheme
recruited “straw buyers” with good credit
                                                On February 26, 2010, in the Northern
ratings to purchase residential properties
                                                District of Texas, a mortgage loan broker
located in Brooklyn, Queens, and the Bronx
                                                was sentenced to 57 months of incarcera-
by promising that, among other things,
                                                tion followed by 36 months of supervised
rental incomes from the properties would
                                                release. He was ordered to pay $1,614,177
ensure that the purchasers would never
                                                in restitution and a $100 special assess-


                                                                                                          19
ment. The defendant’s brother received           With respect to the third conspirator,
a sentence of 46 months of incarcera-            he had prepared residential real estate
tion followed by 36 months of super-             appraisal reports using the stolen iden-
vised release. He was also ordered to pay        tity of a licensed real estate appraiser to
$1,614,177 in restitution and a $100 special     support the value of real estate property
assessment. Both brothers previously             involved in this scheme. He was never a
pleaded guilty to count one of an indict-        licensed real estate appraiser. He worked
ment charging conspiracy to commit bank          as an apprentice for a real estate appraiser
fraud. A third individual was also previ-        and attempted to obtain his own appraisal
ously sentenced in this case for his role in     license but had failed the licensing exami-
preparing fraudulent residential real estate     nation on multiple attempts.
appraisal reports.                               Source: Texas Department of Insurance and the FBI.
                                                 Responsible Agencies: Joint investigation by the FDIC
The first defendant worked as a mortgage         OIG and FBI. Prosecuted by the U.S. Attorney’s Office for
loan broker and owner of United Mortgage         the Northern District of Texas.
Finance Company. His brother recruited
“straw borrowers” and participated in            Former Mortgage Broker and Closing
other overt acts with the defendant in a         Agents in Jackson, Mississippi Convicted
conspiracy to defraud several banks and          for Mortgage Fraud
mortgage companies, including Fremont            On March 22, 2010, a former mortgage
Investment and Loan, an FDIC-regulated           broker was convicted on 33 of 35 counts
institution.                                     of wire fraud, conspiracy to commit wire
The mortgage loan broker completed false         fraud, money laundering, and conspiracy
and fraudulent loan applications on behalf       to commit money laundering. On the same
of straw borrowers. The mortgage loan            day, two business associates, both closing
applications contained material false infor-     agents, were convicted on all 34 counts of
mation concerning the borrowers’ employ-         the same offenses.
ment, income, and assets. These loan             The mortgage broker and other conspira-
applications were submitted to multiple          tors brokered 40 fraudulent mortgage loans
lenders on or near the same date to prevent      totaling over $9 million for various inves-
each lender from detecting multiple prop-        tors. These mortgage loan applications
erties being purchased simultaneously in         contained false verifications of employ-
the name of the straw borrowers. After the       ment, false residential lease agreements,
properties were purchased, false mechan-         fraudulent statements of income and liabili-
ic’s liens were filed on the properties, which   ties, and false creditor invoices. In addition,
enabled the conspirators to receive large        the closing statements indicated the inves-
disbursements from the title companies           tors made down payments to purchase the
when the properties were later sold to           properties when, in fact, they provided no
other straw borrowers at inflated prices.        down payment. Finally the closing state-


20
ments disclosed various charges that were                   brokerage, New Generation Funding’s role
supported by fraudulent invoices.                           was to gather information from prospective
                                                            borrowers, including their income, assets,
As for the involvement of the two closing
                                                            liabilities, and credit worthiness, and then
agents, a father and son, they were doing
                                                            present this information to various mort-
business as Loan Closing and Title Services,
                                                            gage lenders in an effort to induce them to
Inc., and they closed the mortgage loans
                                                            lend money to the borrowers. New Genera-
and helped divert the money to the other
                                                            tion Funding coordinated all aspects of the
parties based on the fraudulent invoices.
                                                            deals and conducted closings to finalize
The trial in the case lasted 4 weeks, and the
                                                            the transactions. The mortgage broker,
jury returned a verdict after deliberating
                                                            who was also a licensed attorney, served
for 2 days. Two of the other conspirators
                                                            as the settlement agent, representing the
pleaded guilty to conspiracy to commit
                                                            mortgage lenders at many of the clos-
wire fraud prior to the trial and each testi-
                                                            ings of loans brokered by New Generation
fied during the trial.
                                                            Funding.
Sentencing for the former mortgage broker
                                                            An investigation of New Generation
and the closing agents is scheduled for
                                                            Funding was initiated when two mortgage
July 16, 2010, but a hearing for the mort-
                                                            lenders, Fremont and Long Beach, stopped
gage broker will be held prior to that
                                                            doing business with New Generation
time to determine whether he will be
                                                            Funding in late 2005 because of an unusu-
remanded to custody prior to sentencing.
                                                            ally high rate of defaults on loans that New
He tampered with two jurors during the
                                                            Generation Funding was handling. The
trial. Sentencings for others involved in the
                                                            mortgage lenders’ audits of the mort-
scheme are scheduled for a later date.
                                                            gage loan applications submitted by New
Source: Suspicious Activity Report/FBI. Responsible         Generation Funding revealed a pattern of
Agencies: Joint investigation by the FDIC OIG, FBI, and
Internal Revenue Service (IRS) Criminal Investigations
                                                            fraud and led the lenders to contact law
Division (CID). Prosecuted by the U.S. Attorney’s Office,   enforcement.
Southern District of Mississippi.
                                                            This investigation revealed numerous false
Mortgage Broker Found Guilty                                statements in loan applications submitted
                                                            by New Generation Funding. These false
On March 11, 2010, a mortgage broker was                    statements included, among other things,
found guilty in the United States District                  false employment information, grossly
Court for the Eastern District of New York of               inflated income, fraudulent identity docu-
conspiracy to commit bank and wire fraud.                   ments, failure to disclose other liabilities,
According to the earlier indictment, the                    and grossly inflated assets. In most cases,
defendant, together with others, owned                      such fraudulent information was used by a
and operated a licensed mortgage                            single buyer to purchase multiple prop-
brokerage operation called New Genera-                      erties, with each property’s loan being
tion Funding. As a licensed mortgage                        funded by a different mortgage lender who


                                                                                                       21
was not informed about the other nearly-                     for prompt resale or Section 8 rental in
simultaneously acquired loans.                               inner-city neighborhoods. Borrowers were
Source: Suspicious Activity Reports. Responsible Agen-       expected to do most of the rehab them-
cies: The FDIC OIG and the FBI. Prosecution is being         selves within a few months of the loan,
handled by the U.S. Attorney’s Office, Eastern District of   and qualify for a loan to purchase a second
New York.                                                    property only when the first property was
                                                             sold, or ready for sale. Omni, its regula-
Other Bank Fraud Case Results                                tors, and investors relied on the expected
                                                             increased value of the property after rehab
Guilty Pleas in Omni National Bank Case
                                                             to be well in excess of the loan amount.
During the reporting period, two defen-
                                                             The former Omni executive vice president
dants pleaded guilty for their roles in
                                                             was the second largest bank shareholder
a bank fraud involving the failed Omni
                                                             and head of Omni’s Community Rede-
National Bank, Atlanta, Georgia. Omni
                                                             velopment Lending Department from
National Bank was an OCC-regulated
                                                             2000 through October 12, 2007. To keep
institution until it was closed by the OCC on                non-performing loans current on paper,
March 27, 2009. On that date, the FDIC was                   the former executive vice president and
appointed receiver. The first defendant was                  others at Omni failed to disclose many
a former executive vice president of Omni,                   exceptions to their policies and procedures
who pleaded guilty to causing materially                     which resulted in Omni being exposed to
false entries that overvalued bank assets to                 a greater risk of loss. Practices that went
be made in the books, reports, and state-                    unreported included: diversion of loan
ments of Omni. The second defendant was                      proceeds escrowed for rehab; excessive
a bank customer who pleaded guilty to                        credit concentrations to a single borrower;
making false statements to the FDIC and                      funding additional loans for Omni fore-
aggravated identity theft in an attempt to                   closures at ever-increasing amounts; and
“short sell” properties mortgaged by the                     failing to create sufficient reserves for those
failed bank.                                                 questionable loans or to properly record
Before takeover by the FDIC on March 27,                     them on Omni’s books and records.
2009, Omni was headquartered in Atlanta                      The former executive vice president and
with branch offices in Birmingham; Tampa;                    others were well aware that none of the
Chicago; Fayetteville, North Carolina;                       foreclosed properties could be sold on
Houston; Dallas; and Philadelphia. Omni                      the open market for the amount of the
borrowed Fed Funds at low rates to make                      outstanding Omni loans. A number of
high-interest, short-term loans to borrowers                 foreclosures were never disclosed on the
with less than stellar credit and often no                   Omni books as required, and some proper-
steady employment or formal education.                       ties were resold up to five times at ever-
These Omni borrowers were supposed to                        increasing amounts. The actions of the
purchase and rehab distressed properties                     former executive vice president and others


22
at Omni resulted in an overvaluation of          had been stolen, and he submitted forged
bank assets, which in turn misled Omni’s         and counterfeited sales contracts and loan
outside auditors, the OCC, the FDIC, the         commitment letters to the FDIC in support
Securities and Exchange Commission, and          of the sales. The bank customer was
Omni shareholders. Such practices contrib-       arrested before he could complete these
uted to over 500 foreclosures and an addi-       sales and ruin the credit of the persons
tional 500 non-performing loans, which           whose identities he had stolen. He could
resulted in at least $7 million in losses to     receive a maximum sentence of up to 30
the FDIC. The Department of Housing and          years in prison and a fine of up to $1 million
Urban Development Section 8 Program              for the false statements crime, as well as a
and its tenants also suffered, because many      mandatory consecutive sentence of 2 years
of the Omni-funded distressed proper-            in prison and a fine up to $250,000 for the
ties were not rehabbed, but rather, stood        aggravated identity theft.
vacant or were inhabited by squatters for        Source and Responsible Agencies: These cases are
years, corrupting other Section 8 properties     being investigated by Special Agents of a Mortgage
and the community.                               Fraud Task Force formed for Omni-related cases, made up
                                                 of the Department of Housing and Urban Development
Another individual involved in a fraud           OIG, the U.S. Postal Inspection Service, the FDIC OIG, the
was a bank customer who pleaded guilty           Office of the Special Inspector General for the Troubled
to charges of making false statements to         Asset Relief Program, and the FBI. Assistant United States
                                                 Attorneys for the Northern District of Georgia are pros-
the FDIC and aggravated identity theft.          ecuting the case.
The bank customer obtained millions of
dollars in loans from Omni before Omni’s         Pamrapo Savings Bank of New Jersey
failure and takeover by the FDIC. Begin-         Pleads Guilty to Conspiracy to Commit
ning in October 2009, when he was facing         BSA Violations and Forfeits $5 Million
foreclosure on 14 different properties, the
                                                 Pamrapo Savings Bank S.L.A., a wholly-
customer asked the FDIC to forgive $2.2
                                                 owned subsidiary of Pamrapo Bancorp
million in Omni loan payoffs and allow
                                                 Inc., based in Bayonne, N.J., pleaded guilty
him to “short sell” two properties each to
                                                 on March 29, 2010 in U.S. District Court for
seven new purchasers at greatly reduced
                                                 the District of New Jersey to conspiracy to
amounts. A “short sale” occurs when a
                                                 violate the BSA and has agreed to forfeit
lender agrees to the sale of property — on
                                                 $5 million to the United States. The BSA is a
which the current owner has defaulted —
                                                 federal law enacted to prevent banks from
to a third party for less than the full amount
                                                 being used to facilitate and perpetuate
due on the loan. Lenders are willing to
                                                 criminal activity, such as narcotics traf-
accept short sales as a means of reducing
                                                 ficking, organized crime, terrorist financing
their losses on bad loans and assisting the
distressed property owner. In this case, the     and other financial crimes.
customer attempted to arrange short sales        According to the criminal information
in the names of people whose identities          filed in U.S. District Court in Trenton, N.J.,


                                                                                                        23
Pamrapo Savings Bank conspired with            these known and repeated violations of
others to conceal its customers’ illegal       the BSA. In addition, Pamrapo Savings Bank
or suspicious activities by failing to file    admitted that it made false and misleading
currency transaction reports and suspicious    statements to bank regulators, including
activity reports and by willfully failing to   OTS, to prevent regulatory oversight and
maintain adequate anti-money laundering        enforcement of its deficient BSA compli-
programs. Pamrapo Savings Bank admitted        ance programs.
that it willfully violated the BSA to avoid
                                               OTS assessed a $5 million civil money
the expenses associated with compliance,
                                               penalty against Pamrapo Savings Bank for
despite federal and state banking regu-
                                               violations of the BSA, which will be deemed
lators telling Pamrapo Savings Bank as
                                               satisfied by the $5 million forfeiture. The
early as 2004 that its BSA and anti-money
                                               Financial Crimes Enforcement Network
laundering programs contained serious
                                               (FinCEN) of the Department of the Treasury
and systemic deficiencies in critical areas
                                               is also investigating Pamrapo Savings Bank
required under the law.
                                               for noncompliance with the BSA and may
Specifically, Pamrapo Savings Bank             impose additional civil money penalties.
admitted during its guilty plea that it
                                               As a result of its guilty plea, Pamrapo
unlawfully failed to file currency transac-
                                               Savings Bank faces no less than one but not
tion reports and suspicious activity reports
                                               more than 5 years of probation and a statu-
related to approximately $35 million in
                                               tory maximum fine equal to the greatest
illegal and suspicious financial transac-
                                               of $500,000, twice the gross amount of
tions, including more than $5 million in
                                               any financial gain that any persons derived
structured currency transactions. The bank
                                               from the offense, or twice the gross amount
acknowledged that its willful failure to
                                               of any financial loss sustained by any
maintain adequate BSA and anti-money
                                               victims of the offense. The court scheduled
laundering programs resulted in numerous
                                               sentencing for May 6, 2010.
and repeated violations of the law.
                                               Source: Based on a request for assistance from the IRS
In one specific example outlined in court      CID and the U.S. Attorney for the District of New Jersey.
documents, from approximately March            Responsible Agencies: The case was investigated by IRS
2005 to September 2006, a co-conspirator       CID, FDIC OIG, FBI, OTS, FinCEN, and the Bayonne Police
                                               Department’s Special Investigation Unit. The case was
cashed approximately 586 checks worth          prosecuted by the Criminal Division’s Asset Forfeiture and
a total of $3.2 million, payable to “cash”     Money Laundering Section and Assistant U.S. Attorney
at multiple branches of Pamrapo Savings        of the U.S. Attorney’s Office Strike Force in Newark, New
Bank. Each check was under $10,000, thus       Jersey.
structured to evade the bank’s obligation
                                               Former Loan Officer Sentenced for
to file currency transaction reports. Ulti-
                                               Receiving Gifts for Procuring Loans
mately, according to the court documents,
Pamrapo Savings Bank willfully failed to       On November 18, 2009, a former loan
file a suspicious activity report related to   officer at Herrin Security Bank was


24
sentenced after previously pleading                        3 years, forfeiture of his residence and
guilty to a two-count indictment. Both                     boat, restitution of $325,459, and a special
counts charged in the indictment were                      assessment of $100.
for the receipt of commissions or gifts for
                                                           By way of background, according to infor-
procuring loans in connection with his
                                                           mation provided by the Special Activities
activity at the bank. The defendant was
                                                           Case Manager for DSC, during an examina-
sentenced to 30 days of federal incarcera-
                                                           tion started on February 17, 2009, being
tion for both counts, to run concurrently,
                                                           conducted jointly by the FDIC and Okla-
to be followed by 3 years of supervised
                                                           homa State Banking Department (SBD), the
release. He was ordered to pay restitution
                                                           Oklahoma SBD received a call from a confi-
in the amount of $51,511 to Herrin Security
                                                           dential source. The source claimed that the
Bank and also ordered to pay a $100 special
                                                           former executive vice president had been
assessment fee.
                                                           embezzling money from the certificates
As part of this scheme, in May 2007, a                     of deposit and bank accounts of a bank
borrower at Herrin Security Bank closed                    customer in excess of $1 million.
on two loans in the amount of $303,560.
                                                           On May 6, 2009, a federal grand jury in Okla-
The loan proceeds were used to consoli-
                                                           homa City, Oklahoma, returned a four-count
date the borrower’s other loans. Many of
                                                           indictment charging the defendant with
his loans were not current with the bank.
                                                           embezzlement and misapplication of bank
In exchange, the former loan officer asked
                                                           funds, making false statements to the FDIC,
the borrower to write two checks to pay off
                                                           and obstructing the examination of a finan-
personal loans that the former loan officer
                                                           cial institution. On April 1, 2009, the defen-
had with other individuals. The borrower
                                                           dant confessed to OIG agents regarding
wrote two checks, one in the amount of
                                                           six occasions when he provided altered
$12,200 and the other for $3,311. As a
                                                           documents to examiners conducting the
result of the fraudulent scheme, the bank
                                                           examination of Glencoe State Bank. On
incurred a loss of $283,225 on the two loans
                                                           July 2, 2009, the former bank executive
that the borrower had earlier obtained from
                                                           pleaded guilty to the charges against him.
the bank.
                                                           Source: Based on a request for assistance from the FDIC’s
Source: FBI. Responsible Agencies: Joint investiga-
                                                           DSC, Dallas, Texas. Responsible Agencies: FDIC OIG and
tion by the FDIC OIG and the FBI. Prosecuted by the U.S.
                                                           U.S. Attorney for the Western District of Oklahoma.
Attorney’s Office, Southern District of Illinois.

Former Glencoe State Bank Executive
Sentenced
On October 7, 2009, the former executive
vice president of Glencoe State Bank was
sentenced to serve 18 months in federal
prison followed by supervised release for


                                                                                                                 25
              Keeping Current with Mortgage Fraud Activities Nationwide
 The FDIC OIG participates in the Department of Justice’s Operation Malicious Mortgage
 and in the following mortgage fraud working groups throughout the country. We benefit
 from the perspectives, experience, and expertise of all parties involved in combating the
 growing incidence of mortgage fraud schemes.
 National Bank Fraud    National Mortgage Fraud Working Sub-group.
 Working Group
 Northeast Region       Long Island Mortgage Fraud Task Force; Eastern District New York Mort-
                        gage Fraud Task Force; the Northern Virginia Real Estate Fraud Initiative
                        Working Group, Manassas, Virginia; Maryland Mortgage Fraud Task Force;
                        the New England Mortgage Fraud Working Group.
 Southeast Region       Middle District of Florida Mortgage and Bank Fraud Task Force, Southern
                        District of Florida Mortgage Fraud Working Group, Northern District of
                        Georgia Mortgage Fraud Task Force, Eastern District of North Carolina Bank
                        Fraud Task Force, Northern District of Alabama Financial Fraud Working
                        Group.
 Midwest Region         Illinois Mortgage Fraud Task Force, Dayton Area Mortgage Fraud Task
                        Force, Cincinnati Area Mortgage Fraud Task Force, St. Louis Mortgage
                        Fraud Task Force, Kansas City Mortgage Fraud Task Force, Detroit Mortgage
                        Fraud Task Force.
 Southwest Region       Seattle Mortgage Fraud Working Group, FBI Seattle Mortgage Fraud Task
                        Force, Mortgage Fraud Task Force for the Southern District of Mississippi,
                        Oklahoma City Financial Crimes Suspicious Activity Report Review Work
                        Group, North Texas Mortgage Fraud Working Group, Eastern District of
                        Texas Mortgage Fraud Task Force, Texas Attorney General’s Residential
                        Mortgage Fraud Task Force, Houston Mortgage Fraud Task Force,
                        Los Angeles Mortgage Fraud Working Group.



                                                    Strong Partnerships with Law Enforcement Colleagues
                                                    The OIG has partnered with various U.S. Attorneys’ Offices throughout the
                                                    country in bringing to justice individuals who have defrauded the FDIC
                                                    or financial institutions within the jurisdiction of the FDIC, or criminally
                                                    impeded the FDIC’s examination and resolution processes. The alliances with
                                                    the U.S. Attorneys’ Offices have yielded positive results during this reporting
                                                    period. Our strong partnership has evolved from years of hard work in
                                                    pursuing offenders through parallel criminal and civil remedies resulting in
                                                    major successes, with harsh sanctions for the offenders. Our collective efforts
                                                    have served as a deterrent to others contemplating criminal activity and
                                                    helped maintain the public’s confidence in the nation’s financial system.
                                                    During the reporting period, we partnered with U.S. Attorneys’ Offices
                                                    in the following states: Alabama, Arizona, Arkansas, California, Colorado,
                                                    Connecticut, Florida, Georgia, Illinois, Indiana, Iowa, Kansas, Kentucky, Loui-
                                                    siana, Maine, Maryland, Massachusetts, Michigan, Minnesota, Mississippi,
                                                    Missouri, Nebraska, Nevada, New Hampshire, New Jersey, New Mexico, New
                                                    York, North Carolina, North Dakota, Ohio, Oklahoma, Pennsylvania, South
                                                    Dakota, Tennessee, Texas, Utah, Vermont, Virginia, Washington, West Virginia,
                                                    Wisconsin.
                                                    We also worked closely with the Department of Justice; FBI; other OIGs; other
                                                    federal, state, and local law enforcement agencies; and FDIC divisions and
                                                    offices as we conducted our work during the reporting period.


26
Strategic Goal 2


                                                                  2
The OIG Will Help the FDIC
Maintain the Viability of the
Insurance Fund




F
Federal deposit insurance remains a funda-
mental part of the FDIC’s commitment to
maintain stability and public confidence in
the Nation’s financial system. With enact-
ment of the Emergency Economic Stabiliza-
                                                The FDIC, in cooperation with the other
                                                primary federal regulators, proactively
                                                identifies and evaluates the risk and finan-
                                                cial condition of every insured depository
tion Act of 2008, the limit of the basic FDIC   institution. The FDIC also identifies broader
deposit insurance coverage was raised           economic and financial risk factors that
temporarily from $100,000 to $250,000 per       affect all insured institutions. The FDIC
depositor, through December 31, 2009.           is committed to providing accurate and
Coverage of up to $250,000 was subse-           timely bank data related to the financial
quently extended through December 31,           condition of the banking industry. Industry-
2013. Estimated insured deposits based on       wide trends and risks are communicated
the current limit rose to $5.4 trillion as of   to the financial industry, its supervisors,
December 31, 2009. A priority for the FDIC      and policymakers through a variety of
is to ensure that the DIF remains viable to     regularly produced publications and ad
protect depositors in the event of an insti-    hoc reports. Risk-management activities
tution’s failure. To maintain sufficient DIF    include approving the entry of new institu-
balances, the FDIC collects risk-based insur-   tions into the deposit insurance system,
ance premiums from insured institutions         off-site risk analysis, assessment of risk-
and invests deposit insurance funds.            based premiums, and special insurance
The DIF has suffered from the failures of the   examinations and enforcement actions. In
past. Losses from failures in 2008 totaled      light of increasing globalization and the
$37.0 billion and from failures in 2009         interdependence of financial and economic
totaled $35.8 billion. I n September 2009,      systems, the FDIC also supports the devel-
the FDIC’s DIF balance – or the net worth of    opment and maintenance of effective
the fund – fell below zero for the first time   deposit insurance and banking systems
since the third quarter of 1992. The fund       world-wide.
balance of about negative $20.9 billion as      Primary responsibility for identifying and
of December 31, 2009 reflects a $44 billion     managing risks to the DIF lies with the
contingent loss reserve that has been set       FDIC’s Division of Insurance and Research,
aside to cover estimated losses over the        DSC, and DRR. To help integrate the risk
next year. Just as banks reserve for loan       management process, the FDIC established
losses, the FDIC has to set aside reserves      the National Risk Committee (NRC), a cross-
for anticipated closings over the next year.    divisional body. Also, a Risk Analysis Center
Combining the fund balance with this            monitors emerging risks and recommends
contingent loss reserve showed total DIF        responses to the NRC. In addition, a Finan-
reserves with a positive balance of $23.1       cial Risk Committee focuses on how risks
billion.                                        impact the DIF and financial reporting.



                                                                                           27
While smaller bank failures take their toll on   2009, the reserve ratio was negative 0.39
the DIF, large banks can pose unique risks       percent.
to the fund, as illustrated by the failure of
                                                 To further bolster the DIF’s cash position,
IndyMac Federal Savings Bank in July 2008,
                                                 the FDIC Board approved a measure on
for example, which caused an estimated
                                                 November 12, 2009 to require insured
$10.7 billion loss to the DIF. Over recent
                                                 institutions to prepay 3 years’ worth of
years, the consolidation of the banking
                                                 deposit insurance premiums – about $45.7
industry has resulted in fewer and fewer
                                                 billion – at the end of 2009. The intent of
financial institutions controlling an ever
                                                 this measure was to provide the FDIC with
expanding percentage of the Nation’s finan-
                                                 the funds needed to carry on with the
cial assets. The FDIC has taken a number of
                                                 task of resolving failed institutions in 2010
measures to strengthen its oversight of the
                                                 and beyond, but without accelerating the
risks to the insurance fund posed by the
                                                 impact of assessments on the industry’s
largest institutions, and its key programs
                                                 earnings and capital. The Corporation
include the following:
                                                 will face challenges going forward in its
  •	Large Insured Depository Institution         ongoing efforts to replenish the DIF and
    Program,                                     implement a deposit insurance premium
  •	Dedicated Examiner Program,                  system that differentiates based on risk to
                                                 the fund.
  •	Shared National Credit Program, and
                                                 To help the FDIC maintain the viability of
  •	Off-site monitoring systems.                 the DIF, the OIG’s 2010 performance goal
The FDIC Board of Directors closely moni-        is as follows:
tors the viability of the DIF. In February
                                                   •	Evaluate corporate programs to iden-
2009, the FDIC Board took action to ensure
                                                     tify and manage risks in the banking
the continued strength of the fund by
                                                     industry that can cause losses to the
imposing a one-time emergency special
                                                     fund.
assessment on institutions as of June 30,
2009. On two occasions, the Board also set       We would note that the OIG’s work refer-
assessment rates that generally increase the     enced in Goal 1 also fully supports the goal
amount that institutions pay each quarter        of helping the FDIC maintain the viability
for insurance and made adjustments to            of the DIF. Each institution for which we
widen the rate band. The Corporation had         conduct an MLR, by definition, causes a
adopted a restoration plan in October            substantial loss to the DIF. The OIG’s MLR
2008 to increase the reserve ratio to the        work is designed to help prevent such
1.15 percent designated threshold within         losses in the future. Similarly, investigative
5 years. In February 2009, the Board voted       activity described in Goal 1 fully supports
to extend the restoration plan horizon to 7      the strategic goal of helping to maintain the
years and in September 2009 extended the         viability of the DIF. The OIG’s efforts often
time frame to 8 years. As of December 31,        lead to successful prosecutions of fraud in


28
financial institutions and/or fraud that can
cause losses to the fund.


OIG Work in Support of Goal 2
Ongoing Work in This Goal Area
At the end of the reporting period, we were
concluding a joint review with the Depart-
ment of the Treasury OIG related to the
failure of Washington Mutual Bank (WaMu).
WaMu was the largest bank failure in the
history of the United States, but because
the resolution structure resulted in no loss
to the DIF, the threshold for conducting an
MLR was not triggered. Given the size, the
circumstances leading up to the resolution,
and the non-DIF losses (i.e., loss of share-
holder value), we initiated a review with the
Department of the Treasury OIG to deter-
mine the events leading to the need for the
FDIC-facilitated transaction. We evaluated
the OTS’s supervision of WaMu, including
implementation of PCA provisions of
section 38, and the FDIC’s supervision and
monitoring of WaMu in its role as back-up
regulator and insurer. This evaluation is the
first to comprehensively analyze the super-
visory efforts of the OTS and the FDIC with
respect to a single failure. Results of this
work will be presented in our next semian-
nual report.




                                                29
                  Strategic Goal 3:


     3            The OIG Will Assist the FDIC to
                  Protect Consumer Rights and Ensure
                  Customer Data Security and Privacy




     C
         Consumer protection laws are impor-                 try’s national credit reporting system
         tant safety nets for Americans. The U.S.            and assists financial institutions and
         Congress has long advocated particular              consumers in the fight against identity
         protections for consumers in relation-              theft.
         ships with banks. For example:                   The FDIC serves a number of key roles in
           •	The Community Reinvestment Act               the financial system and among the most
             encourages federally insured banks to        important is its work in ensuring that
             meet the credit needs of their entire        banks serve their communities and treat
             community.                                   consumers fairly. The FDIC carries out its
                                                          role by providing consumers with access to
           •	The Equal Credit Opportunity Act
                                                          information about their rights and disclo-
             prohibits creditor practices that discrim-
                                                          sures that are required by federal laws
             inate based on race, color, religion,        and regulations and examining the banks
             national origin, sex, marital status, or     where the FDIC is the primary federal regu-
             age.                                         lator to determine the institutions’ compli-
           •	The Home Mortgage Disclosure Act             ance with laws and regulations governing
             was enacted to provide information           consumer protection, fair lending, and
             to the public and federal regulators         community investment. As a means of
             regarding how depository institutions        remaining responsive to consumers, the
             are fulfilling their obligations towards     FDIC’s Consumer Response Center investi-
             community housing needs.                     gates consumer complaints about FDIC-
                                                          supervised institutions and responds to
           •	The Fair Housing Act prohibits discrimi-
                                                          consumer inquiries about consumer laws
             nation based on race, color, religion,       and regulations and banking practices.
             national origin, sex, familial status, and
             handicap in residential real-estate-         Turmoil in the credit and mortgage markets
             related transactions.                        has presented regulators, policymakers, and
                                                          the financial services industry with serious
           •	The Gramm-Leach Bliley Act elimi-            challenges. The Chairman is committed to
             nated barriers preventing the affiliations   working with the Congress and others to
             of banks with securities firms and insur-    ensure that the banking system remains
             ance companies and mandated new              sound and that the broader financial
             privacy rules.                               system is positioned to meet the credit
           •	The Truth in Lending Act requires            needs of the economy, especially the needs
             meaningful disclosure of credit and          of creditworthy households that may expe-
             leasing terms.                               rience distress. Another important priority
                                                          is financial literacy. The FDIC Chairman
           •	The Fair and Accurate Credit Transac-        has promoted expanded opportunities
             tion Act further strengthened the coun-      for the underserved banking population
                                                          in the United States to enter and better


30
understand the financial mainstream.             legislation to address such misrepresenta-
                                                 tions. The Emergency Economic Stabiliza-
Consumers today are also concerned about
                                                 tion Act of 2008, signed by the former
data security and financial privacy. Banks
                                                 President on October 3, 2008, contained
are increasingly using third-party servicers
                                                 provisions that address this issue.
to provide support for core information
and transaction processing functions. Of         Investigative work related to such
note, the increasing globalization and cost      fraudulent schemes is ongoing and will
saving benefits of the financial services        continue. With the help of sophisticated
industry are leading many banks to make          technology, the OIG continues to work
greater use of foreign-based service             with FDIC divisions and other federal
providers. The obligations of a financial        agencies to help with the detection of
institution to protect the privacy and           new fraud patterns and combat existing
security of information about its customers      fraud. Coordinating closely with the
under applicable U.S. laws and regulations       Corporation and the various U.S. Attorneys’
remain in full effect when the institu-          Offices, the OIG helps to sustain public
tion transfers the information to either a       confidence in federal deposit insurance
domestic or foreign-based service provider.      and goodwill within financial institutions.
Every year fraud schemes rob depositors          To assist the FDIC to protect consumer
and financial institutions of millions of        rights and ensure customer data
dollars. The OIG’s Office of Investigations      security and privacy, the OIG’s 2010
can identify, target, disrupt, and dismantle     performance goals are as follows:
criminal organizations and individual              •	Contribute to the effectiveness of the
operations engaged in fraud schemes that
                                                     Corporation’s efforts to ensure compli-
target our financial institutions or that prey
                                                     ance with consumer protections at
on the banking public. OIG investigations
                                                     FDIC-supervised institutions.
have identified multiple schemes that
defraud depositors. Common schemes                 •	Support corporate efforts to promote
range from identity fraud to Internet                fairness and inclusion in the delivery of
scams such as “phishing” and “pharming.”             products and services to consumers and
                                                     communities.
The misuse of the FDIC’s name or logo has
also been identified as a scheme to defraud        •	Conduct investigations of fraudulent
depositors. Such misrepresentations have             representations of FDIC affiliation or
led depositors to invest on the strength             insurance that negatively impact public
of FDIC insurance while misleading them              confidence in the banking system.
as to the true nature of the investment
products being offered. These depositors         OIG Work in Support of Goal 3
have lost millions of dollars in the schemes.
The OIG has been a strong proponent of           During the reporting period, we did not
                                                 devote audit or evaluation resources


                                                                                               31
directly to this goal area. However, inves-     OIG’s Electronic Crimes Unit
tigative work related to misrepresentation
                                                Responds to Fraudulent E-mail
of FDIC insurance or affiliation, and protec-
tion of personal information supported this     Activities
strategic goal area, as described below.        Identity theft also continues to become
                                                more sophisticated, and the number of
Office of Investigations Works to               victims is growing. Identity theft includes
Curtail Misrepresentation of FDIC               using the Internet for crimes such as
Insurance or Affiliation                        “phishing” emails and “pharming” Web
                                                sites that attempt to trick people into
Unscrupulous individuals sometimes
                                                divulging their private financial infor-
attempt to misuse the FDIC’s name,
                                                mation. Schemers pretend to be legiti-
logo, abbreviation, or other indicators to
                                                mate businesses or government entities
suggest that deposits or other products         with a need for the information that is
are fully insured. Such misrepresentations      requested. The ECU responds to such scams
induce the targets of schemes to trust          involving the FDIC and the OIG. During
in the strength of FDIC insurance while         the reporting period, the ECU responded
misleading them as to the true nature of        to allegations of fraudulent emails that
the insurance investments being offered.        represented they were from the FDIC
Abuses of this nature not only harm             and had 15 fraudulent email accounts
consumers, they can also erode public           deactivated. The ECU also arranged for
confidence in federal deposit insurance.        the shut-down of a Skype number that
During the reporting period, the OIG’s          was being used as part of a scam that
Electronic Crimes Unit (ECU) investi-           misrepresented that it was from the FDIC.
gated two new instances of Web sites            The ECU opened four new cases related to
that falsely advertised FDIC insurance. In      phishing Web sites involving the FDIC. In
both cases, the ECU was able to have the        three of the new cases, the ECU was able
Web site deactivated or the reference to        to have the fraudulent Web sites deacti-
FDIC insurance removed. In addition, the        vated. The ECU continues to investigate the
ECU continued to pursue an investiga-           fourth new phishing case. The ECU was also
tion involving a scam where banks are           able to have three other fraudulent FDIC-
requested to send confidential informa-         related phishing Web sites deactivated that
tion by fax to an entity purported to be        were part of previously opened cases.
the FDIC. The faxes go to a service that
converts them to email and sends the
information to free, untraceable email
addresses. During the reporting period,
the ECU had two fax numbers deactivated.
The ECU has previously had 10 fax numbers
associated with this scam deactivated.


32
Strategic Goal 4
The OIG Will Help Ensure that
the FDIC Efficiently and Effectively
Resolves Failing Banks and Manages
Receiverships
                                                                  4
T
The FDIC protects depositors of insured
banks and savings associations. In the
FDIC’s history, no depositor has expe-
rienced a loss on the insured amount
                                                  consolidating into larger organizations.
                                                  As a result, the FDIC has been called
                                                  upon to handle failing institutions with
                                                  significantly larger numbers of insured
of his or her deposit in an FDIC-insured
institution due to a failure. One of the          deposits than it has had to deal with in
FDIC’s most important roles is acting as          the past. The sheer volume of all failed
the receiver or liquidating agent for failed      institutions, big and small, poses tremen-
FDIC-insured institutions. The success of         dous challenges and risks to the FDIC.
the FDIC’s efforts in resolving troubled          As noted earlier, 140 institutions failed
institutions has a direct impact on the           during 2009, with total assets at failure of
banking industry and on taxpayers.                $171.2 billion and total estimated losses
DRR’s responsibilities include planning           to the DIF of approximately $35.8 billion.
and efficiently handling the resolutions          During 2009, the number of institutions
of failing FDIC-insured institutions and          on the FDIC’s “Problem List” also rose to its
providing prompt, responsive, and efficient       highest level in 16 years. As of December
administration of failing and failed financial    31, 2009, there were 702 insured institu-
institutions in order to maintain confidence      tions on the “Problem List,” indicating
and stability in our financial system.            a probability of more failures to come
                                                  and an increased asset disposition work-
  •	The resolution process involves valuing       load. Total assets of problem institutions
    a failing federally insured depository        increased to $403 billion as of year-end
    institution, marketing it, soliciting and     2009. As of the end of December 2009, DRR
    accepting bids for the sale of the institu-   was managing 187 active receiverships,
    tion, considering the least costly resolu-    with assets totaling about $41 billion.
    tion method, determining which bid to
    accept, and working with the acquiring        Of special note, the FDIC is retaining large
    institution through the closing process.      volumes of assets as part of purchase
                                                  and assumption agreements with insti-
  •	The receivership process involves
                                                  tutions that are assuming the insured
    performing the closing function at the
                                                  deposits of failed institutions. A number
    failed bank; liquidating any remaining
                                                  of the purchase and assumption agree-
    assets; and distributing any proceeds to
                                                  ments include loss share agreements (LSA)
    the FDIC, the bank customers, general
                                                  with other parties that involve pools of
    creditors, and those with approved
                                                  assets worth billions of dollars and that
    claims.
                                                  can extend up to 10 years. From a dollar
The FDIC’s resolution and receivership            standpoint, the FDIC’s exposure is stag-
activities pose tremendous challenges.            gering: as of December 31, 2009, the
As indicated by the trends in mergers             Corporation was party to 93 LSAs related
and acquisitions, banks have become               to closed institutions, with initial covered
more complex, and the industry is                 assets in excess of $122.4 billion. Because
                                                                                               33
the assuming institutions are servicing          in the case of bank closings where fraud
the assets and the FDIC is reimbursing a         is suspected, our Office of Investiga-
substantial portion of the related losses        tions sends case agents and computer
and expenses, there is significant risk to       forensic special agents from the ECU to
the Corporation. Additionally, the FDIC is       the institution. ECU agents use special
increasingly using structured sales trans-       investigative tools to provide computer
actions to sell assets to third parties that     forensic support to OI’s investigations by
are not required to be regulated financial       obtaining, preserving, and later examining
institutions. Such arrangements need to be       evidence from computers at the bank.
closely monitored to ensure compliance
                                                 The OIG also coordinates closely with DRR
with all terms and conditions of the agree-
                                                 on concealment of assets cases. In many
ments at a time when the FDIC’s control
                                                 instances, the FDIC debtors do not have
environment is continuing to evolve.
                                                 the means to pay fines or restitution owed
It takes a substantial level of human            to the Corporation. However, some indi-
resources to handle the mounting reso-           viduals do have the means to pay but hide
lution and receivership workload, and            their assets and/or lie about their ability to
effectively administering such a complex         pay. OI works closely with both DRR and
workforce is challenging. The Corpora-           the Legal Division in aggressively pursuing
tion has established temporary satellite         criminal investigations of these individuals.
offices on the East Coast, West Coast, and
                                                 To help ensure the FDIC efficiently and
in the Midwest to resolve failed institu-
                                                 effectively resolves failing banks and
tions and manage resulting receiverships.
                                                 manages receiverships, the OIG’s 2010
DRR staffing grew from approximately
                                                 performance goals are as follows:
400 employees at the start of 2009 to a
year-end staffing level of 1,153 full-time         •	Evaluate the FDIC’s plans and systems
equivalents. The FDIC Board of Directors             for managing bank resolutions.
approved a further increase in the Divi-           •	Investigate crimes involved in or
sion’s staffing to 2,310 for 2010. Most of           contributing to the failure of financial
these new employees have been hired
                                                     institutions or which lessen or otherwise
on non-permanent appointments with
                                                     affect recoveries by the DIF, involving
terms of up to 5 years. Additionally, over
                                                     restitution or otherwise.
$1.8 billion will be available for contracting
for receivership-related services during
2010, and by the end of 2009, DRR already        OIG Work in Support of Goal 4
employed over 1,500 contractor personnel.        During the reporting period, the OIG
While OIG audits and evaluations address         conducted an evaluation of the FDIC’s Loan
various aspects of resolution and receiver-      Modification Program as carried out under
ship activities, OIG investigations benefit      certain LSAs with assuming institutions.
the Corporation in other ways. That is,          We also planned a number of new assign-


34
ments involving resolution and receiver-       successful loan modification candidate
ship activities. Additionally, we pursued      result in a (1) positive net present value as
an investigation involving a former FDIC       opposed to a foreclosure option and (2)
contract employee at an FDIC receivership.     monthly payment representing no more
These efforts are briefly discussed below.     than 31 percent of the borrower’s gross
                                               monthly income. The FDIC’s LMP process
The FDIC’s Loan Modification                   has to be straightforward and efficient in
Program                                        order to modify a large number of “at-risk”
                                               mortgages in a short period of time.
The recent financial crisis has resulted in
dramatic increases in home mortgage            In February 2009, the Obama Administra-
defaults and foreclosures, and imposed         tion announced The Homeowner Afford-
significant costs on borrowers, lenders,       ability and Stability Plan, a $75 billion
mortgage investors, and neighborhoods.         federal program designed to provide for
In response, the FDIC developed a loan         a sweeping LMP targeted at borrowers
modification program (LMP) at IndyMac          who are at risk of foreclosure. The plan
Federal Bank, FSB, an FDIC conservatorship,    tasked Treasury with developing and
to place borrowers into affordable mort-       implementing uniform guidance for the
gages while achieving an improved return       government’s loan modification efforts.
for bankers and investors over foreclo-        Treasury announced its HAMP in March
sure. Since November 2008, the FDIC has        2009, which built on the work of Congres-
required institutions assuming FDIC failed     sional leaders and the FDIC’s LMP efforts.
bank assets to implement some form of          The FDIC frequently enters in LSAs with
LMP on single-family assets acquired under     institutions that assume failed bank
LSAs. We conducted an evaluation of (1)        assets. These LSAs require the assuming
the extent to which the FDIC has required      institution to implement some form of
LMP implementation at assuming institu-        LMP on the acquired single-family loans.
tions and (2) the internal controls over the   Through December 31, 2009, the FDIC
program and how those controls compare         had entered into 86 LSAs for single-family
to the Department of the Treasury’s            loans totaling $53.2 billion. The FDIC’s LMP
(Treasury) Home Affordable Modification        is the default program for LSAs; however,
Program (HAMP), including controls estab-      assuming institutions have the option of
lished to detect and prevent program fraud.    using HAMP or another LMP acceptable
By way of background, in 2008, the FDIC        to the FDIC. Three large assuming institu-
initiated a systematic and streamlined         tions, representing 50 percent of total
approach to loan modifications at IndyMac      single-family LSA assets as of December 31,
Federal Bank, FSB, by turning troubled         2009, are implementing Treasury’s HAMP.
loans into performing loans and, thereby,      We evaluated loan modification activity
avoiding unnecessary and costly fore-          for the eight largest LSAs, representing 97
closures. The FDIC’s LMP required that a


                                                                                           35
percent of the single-family assets under       certain important characteristics of the
LSAs as of July 31, 2009. Through December      FDIC’s LMP are consistent with HAMP, we
31, 2009, the assuming institutions had         identified other areas where the FDIC’s
completed 4,348 modifications and had           LMP program attributes and controls
6,492 modifications in process. Collectively,   could be strengthened, related to:
the eight LSAs had a total of 24,853 single-
                                                  •	The agreement with the assuming insti-
family loans that had been delinquent
                                                    tution to follow the FDIC’s LMP and LMP
longer than 60 days or were in foreclosure.
                                                    guidelines and program details;
FDIC officials noted that it is important to
consider single-family portfolio charac-          •	FDIC LMP loan underwriting, file
teristics when assessing the success of an          documentation, and certain reporting
assuming institution’s LMP. Such charac-            requirements;
teristics include the type of loan portfolio      •	Requirements for the assuming insti-
(e.g., non-traditional or subprime); the            tution to develop an internal control
number of second lien loans, non-owner              program to monitor program compli-
occupied loans, or loans in bankruptcy;             ance and to detect loan modification
and the proportion of delinquent loans              fraud; and
that are actually eligible for modification.
                                                  •	The FDIC’s plans for the independent
The FDIC may also enter into public-                monitoring of assuming institutions to
private partnerships with private sector
                                                    ensure program compliance. 	
investors, which require the purchasers
to implement some form of LMP or retain         In comparing the FDIC’s LMP to Treasury’s
single-family assets in FDIC receiverships.     HAMP, we acknowledged that HAMP was
With respect to receivership assets, the        a much broader program aimed at modi-
FDIC encourages, but does not require,          fying millions of mortgages. Accordingly,
servicers to pursue loan modifications          did not suggest that the FDIC’s program
due to the temporary nature of the FDIC’s       should be identical to HAMP; rather, our
ownership of those assets. The FDIC may         report discussed certain program principles
issue guidance for pursuing loan modifica-      and attributes that could be strengthened
tions of receivership assets in the future.     in the FDIC LMP program to help ensure
                                                program success. We also acknowledged
President Obama’s strategy for restruc-
                                                that the FDIC’s LMP was a relatively new
turing or refinancing millions of at-risk
                                                program and that DRR was still in the
mortgages tasked Treasury with devel-
                                                process of implementing program controls.
oping uniform guidance for loan modifica-
tions and required agencies such as the         We made five recommendations to
FDIC to seek to apply uniform guidance to       enhance program controls related to: the
loans that the agency owns or guarantees.       LMP agreement with the assuming insti-
We evaluated the FDIC’s LMP program             tution and LMP guidelines; underwriting
against Treasury’s HAMP program. While          and clarifying information collection


36
requirements for fair housing purposes;          and FDIC Director Curry related to the OIG’s
assuming institution internal control            assessment of risk in DRR and the OIG’s
programs; and FDIC compliance moni-              planned audit coverage of these risks.
toring of assuming institutions. FDIC
                                                 Currently our work is focusing
management concurred with each recom-
                                                 on the following areas:
mendation and proposed responsive
actions to be completed by June 30, 2010.        Loss Share Agreements: Under such
                                                 agreements, the FDIC agrees to absorb a
OIG Audit Work Focuses on New                    portion of the loss on a specified pool of
Resolution and Receivership                      assets in order to maximize asset recoveries
Challenges                                       and minimize losses to the FDIC. We are
                                                 evaluating loss share provisions to ensure
The OIG contracted with KPMG to conduct          compliance with all related terms, such as
a risk assessment of resolution and receiver-    those involving asset eligibility and institu-
ship activities at the FDIC. From September      tion management of guaranteed assets.
through November 2009, KPMG assessed             Concerning LSAs, 7 purchasers hold about
processes within the FDIC’s resolution and       75 percent of the covered assets with hold-
receivership business units and assigned
                                                 ings of each exceeding $5 billion. Our initial
risk categories of critical, high, moderate
                                                 coverage is focused on three of the seven
and low. KPMG did not include either LSAs
                                                 and at least one smaller LSA. Our coverage
or structured sales specifically in their
                                                 will include commercial and single-family
assessment due to conflicts of interest
                                                 loans and securities included in LSAs.
created by contracts with DRR. The OIG
assessed these latter areas. Overall, the OIG    Structured Sales: Structured asset sales
and KPMG conducted numerous meet-                are the sale of asset pools through public/
ings with DRR management to discuss              private partnerships that use the asset
inherent risks and risk mitigation activities.   management expertise of the private
                                                 sector while retaining for the FDIC a
We used the KPMG and OIG risk information
                                                 participation interest in all future cash
to determine initial areas for audit coverage
                                                 flows. The FDIC, acting on behalf of failed
as part of our risk-based planning process.
                                                 bank receiverships, completed 6 structured
We also met with the Government Account-
                                                 asset sales in 2009, covering a total of
ability Office (GAO) on its coverage of key
                                                 10,399 assets with a book value of approxi-
areas as part of the annual audit of the FDIC
                                                 mately $10 billion. We plan several audits
financial statements. Going forward, we
                                                 to assess private sector firms’ compliance
will also consider any coverage of DRR-
                                                 with the structured asset sales agreements.
related work by the Office of Enterprise Risk
Management. All of this input has provided       Proforma Financial Statements: The FDIC
information to support audit prioritiza-         closing process for failed financial institu-
tion and develop audit programs. We              tions includes preparation of proforma
provided a briefing to the Vice Chairman         financial statements. The primary focus


                                                                                             37
of proforma is to produce an accurate              OIG Investigation Reveals Former
adjusted statement of financial condition          FDIC Contract Employee Disclosed
(balance sheet) of the failed institution          Confidential Information
through the date of closing. The proforma
financial statements are the basis for             On March 23, 2010, in the United States
opening balances of both the FDIC as the           District Court for the District of Kansas,
receiver and the assuming or acquiring             a former FDIC DRR contract employee
institution, as appropriate. It is from this set   at Columbian Bank and Trust (CBT)
of financial statements, based on the terms        pleaded guilty for violating Title 18
of the legal documents, that the assets            USC §1905, Disclosure of Confiden-
and liabilities are divided between the            tial Information. Columbian Bank and
receivership and the acquiring institution.        Trust was an FDIC-regulated institution
The proforma audit coverage will focus on          prior to its failure on August 28, 2008.
ensuring that failed institution assets are        Commencing in August 2008 and
properly allocated to the receivership and         continuing until she was removed from
purchaser in accordance with the appli-            the bank in July 2009, the defendant
cable purchase and assumption agreement.           used her position as a contract employee
                                                   for the FDIC’s DRR to obtain information
The OIG’s Electronic Crimes Unit                   regarding the potential sale of troubled
Responds to Bank Closings                          loans and assets by the FDIC, following
                                                   the failure of CBT. Based on her work as
The ECU responded to five bank closings
                                                   a former loan processor for CBT, she also
during the reporting period. At these
                                                   attempted to profit by brokering various
closings, ECU agents collected electronic
                                                   defaulted loans in FDIC receivership to
evidence from 170 computers. The ECU
                                                   outside investors. During the brokering
also collected electronic evidence related
                                                   process, she provided confidential infor-
to the institutions’ network files and
                                                   mation such as customer loan files, tax
email accounts. The OIG uses forensic
                                                   documents, and other financial documents
software that can process large amounts
                                                   belonging to the FDIC to outside parties.
of data, search for key words, sort infor-
mation by date or name, identify falsi-            During the course of this investigation,
fied documents, and find other relevant            the defendant provided a signed sworn
information that can provide evidence              statement acknowledging she know-
of fraudulent activities. This electronic          ingly violated federal law by releasing
evidence is analyzed and provided to               confidential information belonging
FDIC OIG agents working fraud cases                to the FDIC through her position as a
related to the failed financial institutions.      contract employee for the FDIC DRR.
                                                   Source: Investigation initiated based on information
                                                   provided by an anonymous source. Responsible Agen-
                                                   cies: The FDIC OIG conducted the investigation with
                                                   assistance from the United States Secret Service. The
                                                   case was prosecuted by the U.S. Attorney’s Office for the
                                                   District of Kansas.
38
Strategic Goal 5:



                                                                  5
The OIG Will Promote Sound
Governance and Effective Stewardship
and Security of Human, Financial, IT, and
Physical Resources




T
The FDIC must effectively manage and
utilize a number of critical strategic
resources in order to carry out its mission
successfully, particularly its human,
financial, information technology (IT), and
physical resources.
                                                the FDIC has established a process for
                                                conducting privacy impact assessments of
                                                its information systems containing person-
                                                ally identifiable information that is consis-
                                                tent with relevant privacy-related policy,
Human Resources: Of particular note, FDIC       guidance, and standards.
staffing levels have increased dramatically.
The Board approved a 2010 FDIC staffing         Financial Resources: The Corporation does
level of 8,653, reflecting an increase from     not receive an annual appropriation, except
7,010 positions in 2009. These staff—mostly     for its OIG, but rather is funded by the
temporary, and including a number of            premiums that banks and thrift institutions
rehired annuitants—will perform bank            pay for deposit insurance coverage, the sale
examinations and other supervisory              of assets recovered from failed banks and
activities to address bank failures, and,       thrifts, and from earnings on investments in
as mentioned previously, an increasing          U.S. Treasury securities.
number will be devoted to managing and          To support increases in FDIC and contractor
selling assets retained by the FDIC when        resources, the Board approved a nearly
a failed bank is sold. The FDIC has opened      $4.0 billion 2010 Corporate Operating
three new temporary Satellite Offices           Budget, approximately $1.4 billion higher
(East Coast, West Coast, and Midwest) for       than for 2009. The operating budget
resolving failed financial institutions and     provides resources for the operations of
managing the resulting receiverships.           the Corporation’s three major programs or
As referenced earlier, the Corporation’s        business lines—Insurance, Supervision, and
contracting level has also grown signifi-       Receivership Management—as well as its
cantly, especially with respect to resolution   major program support functions (legal,
and receivership work. As a good steward,       administrative, financial, IT, etc.). The FDIC’s
the FDIC must ensure it receives the goods      operating expenses are largely paid from
and services purchased with corporate           the insurance fund, and consistent with
funds and have effective contractor over-       sound corporate governance principles, the
sight controls in place as well.                Corporation’s financial management efforts
                                                must continuously seek to be efficient and
In an age of identity theft risks, an impor-
                                                cost-conscious.
tant human capital management respon-
sibility at the FDIC is to maintain effective   In addition to the Corporate Operating
controls to protect personal employee-          Budget, the FDIC has a separate Investment
related information that the Corporation        Budget that is composed of individual
possesses. The appointment of a chief           project budgets approved by the Board
privacy officer and implementation of a         of Directors for major investment proj-
privacy program have been positive steps        ects. Budgets for investment projects are
in addressing that challenge. Further,          approved on a multi-year basis, and funds


                                                                                             39
for an approved project may be carried         been established on the East and West
over from year to year until the project is    coasts and in the Midwest. Ensuring the
completed. Expenditures from the Corpo-        safety and security of the human and
rate Operating and Investment Budgets          physical resources in all of these offices
are paid from two funds managed by the         is a fundamental corporate responsibility
FDIC—the DIF and the Federal Savings and       that is directly tied to the Corporation’s
Loan Insurance Corporation Resolution          successful accomplishment of its mission.
Fund.                                          The FDIC needs to be sure that its emer-
IT Resources: At the FDIC, the Corpora-        gency response plans provide for the safety
tion seeks to leverage IT to support its       and physical security of its personnel and
business goals in insurance, supervision       ensure that its business continuity plan-
and consumer protection, and receiver-         ning and disaster recovery capability keep
ship management, and to improve the            critical business functions operational
operational efficiency of its business         during any emergency.
processes. Along with the positive benefits    Corporate Governance and Risk Manage-
that IT offers comes a certain degree of       ment: The FDIC is managed by a five-
risk. In that regard, information security     person Board of Directors, all of whom are
has been a long-standing and widely            appointed by the President and confirmed
acknowledged concern among federal             by the Senate, with no more than three
agencies. The Federal Information Security     being from the same political party. The
Management Act (FISMA) requires each           Board includes the Comptroller of the
agency to develop, document, and imple-        Currency and the Director of OTS. Given the
ment an agency-wide information security       relatively frequent changes in the Board
program to provide adequate security for       make-up, it is essential that strong and
the information and information systems        sustainable governance and communica-
that support the operations and assets of      tion processes are in place throughout the
the agency. Section 522 of the Consoli-        FDIC and that Board members possess and
dated Appropriations Act of 2005 requires      share the information needed at all times
agencies to establish and implement            to understand existing and emerging risks
comprehensive privacy and data protec-         and make sound policy and management
tion procedures and have periodic third-       decisions.
party reviews performed of their privacy
                                               Enterprise risk management is a key
programs and practices.
                                               component of governance. The FDIC’s
Physical Resources: The FDIC is headquar-      numerous enterprise risk management
tered in Washington, D.C., but conducts        activities need to consistently identify,
much of its business in six regional offices   analyze, and mitigate operational risks on
and in field offices throughout the United     an integrated, corporate-wide basis. Addi-
States. Additionally, as referenced earlier,   tionally, such risks need to be communi-
three new temporary satellite offices have     cated throughout the Corporation and the


40
relationship between internal and external       OIG Work in Support of Goal 5
risks and related risk mitigation activities
                                                 Given the need to devote most all of the
should be understood by all involved. To
                                                 OIG’s resources to the conduct of MLRs
further enhance risk monitoring efforts,
                                                 and other pressing priorities, the OIG was
the Corporation has established six new          not able to commit substantial resources
Program Management Offices to address            to work in this strategic goal area during
risks associated with such activities as loss    the reporting period. We did, however,
share agreements, contracting oversight for      issue a comprehensive report pursuant to
new programs and resolution activities, the      FISMA. Additionally, we completed an audit
systemic resolution authority program, and       of FDICconnect, one of the most widely
human resource management concerns.              used Web-based applications at the FDIC.
These new offices and the contractors            Both of these assignments are discussed
engaged to assist them will require addi-        below. In another assignment related to the
tional oversight mechanisms to help ensure       Corporation’s data submissions through the
their success.                                   governmentwide financial report system
                                                 as of September 30, 2009, we verified that
To promote sound governance and effec-           the FDIC’s summary account information
tive stewardship and security of human,          agreed with the FDIC’s general ledger
financial, IT, and physical resources, the       accounts and was accurately entered into
OIG’s 2010 performance goals are as              the governmentwide financial report
follows:                                         system, and that year-end data submitted
                                                 agreed with the FDIC’s December 31, 2008
  •	Evaluate corporate efforts to manage
                                                 audited financial statements.
    human resources and operations effi-
    ciently, effectively, and economically.      The FDIC’s Information Security
  •	Promote integrity in FDIC internal           Program
    operations.                                  FISMA requires federal agencies, including
  •	Promote alignment of IT with the FDIC’s      the FDIC, to have annual independent
    business goals and objectives.               evaluations by agency Inspectors General
                                                 of their information security program and
  •	Promote IT security measures that            practices and to report the results of the
    ensure the confidentiality, integrity, and   evaluation to the Office of Management
    availability of corporate information.       and Budget. We contracted with KPMG to
  •	Promote personnel and physical secu-         perform an audit to fulfill the requirements
    rity.                                        for the 2009 independent evaluation. The
                                                 audit was designed to determine the effec-
  •	Promote sound corporate governance           tiveness of the FDIC’s information security
    and effective risk management and            program and practices, including the
    internal control efforts.                    FDIC’s compliance with FISMA and related


                                                                                           41
information security policies, procedures,      Architecture; Risk Assessment; Planning;
standards, and guidelines.                      Certification, Accreditation, and Security
                                                Assessments; Physical and Environmental
KPMG reported that the FDIC has estab-
                                                Protection; Configuration Management;
lished a corporate-wide information
                                                Identification and Authentication; Access
security program, including policies and
                                                Control; and Audit and Accountability. In
procedures, addressing the principal
                                                many cases, the FDIC was already working
provisions of FISMA and the standards
                                                to improve security controls in these areas
and guidelines of the National Institute
                                                during KPMG’s audit.
of Standards and Technology (NIST). The
FDIC had also implemented a number of
                                                Audit of FDICconnect
important security control improvements
following KPMG’s 2008 evaluation, such as       FDICconnect is a Web-based application
encrypting mainframe and server backup          that allows FDIC-insured financial institu-
tapes, developing a multi-year strategy for     tions to conduct business and exchange
generating and reviewing audit logs for         sensitive information (including privacy
the FDIC’s portfolio of information systems,    data) with the FDIC, other federal regula-
and restricting access to security logs         tory agencies, and state banking depart-
from network devices. Additional control        ments. FDICconnect is one of the most
improvements were underway at the close         widely used Web-based applications at the
of the audit.                                   FDIC.
KPMG did, however, identify a number            We contracted with KPMG to assess the
of security program control families            FDIC’s IT security controls over FDIC-
warranting management attention. Most           connect that are designed to ensure the
notably, KPMG identified access control         confidentiality, integrity, and availability of
deficiencies within the FDIC’s internal         the system. Specifically, the audit assessed
network similar to those identified in the      selected IT security controls pertaining to
2008 FISMA evaluation that presented a          the core functionality and selected business
high risk of unauthorized disclosure of         transactions of FDICconnect. KPMG used
sensitive information or compromise of          security standards and guidelines issued by
IT resources. While the FDIC took prompt        NIST as its principal criteria in performing
action to address the specific access control   the audit.
vulnerabilities identified during the audit,    KPMG found that the FDIC had established
priority management attention in this area      and implemented a number of important
continues to be warranted.                      information security controls over FDICcon-
The report identifies nine steps that           nect that are designed to ensure the confi-
the Corporation can take to strengthen          dentiality, integrity, and availability of the
its information security controls. These        system. Such controls include written infor-
steps address such areas as: Enterprise         mation security policies and procedures



42
in substantially all of the areas that KPMG          ment methodology to help ensure that
reviewed; key planning documents, such as            risks associated with electronic transactions
an application security plan, contingency            involving the Internet are fully considered.
plan, and configuration management plan;             FDIC management concurred with the
and strong network perimeter security                recommendations, and its actions and
controls that include firewalls, an intrusion        planned actions were responsive.
detection system, and monthly scanning
of FDICconnect servers to detect missing             Defense Contract Audit Agency
security patches and other security vulner-          Audits (DCAA) of FDIC Contractors
abilities. Further, the Division of Information
                                                     The OIG engaged DCAA to provide audit
Technology (DIT) had certified and accred-
                                                     services on a reimbursable basis. DCAA
ited FDICconnect using a methodology
                                                     issued three incurred cost audit reports on
consistent with NIST security standards and
                                                     contractors who are doing business with
guidelines.
                                                     the FDIC. Additional information on this
KPMG did identify several security control           work is presented in Table XII on page 56.
deficiencies warranting management
attention. Specifically, DIT needed
to strengthen its configura-              Former FDIC Employee Sentenced in
tion management controls for
FDICconnect by ensuring that
                                                            Bribery Case
source code in the production         The OIG handles investigations of FDIC employee cases
computing environment and the         to ensure the integrity of the FDIC’s internal programs
FDIC’s corporate software reposi-     and operations. During the reporting period, a former
tory are consistent and properly      FDIC employee was sentenced in the Eastern District of
documented. DIT also needed to        Virginia relating to his guilty plea to a criminal infor-
review certain FDICconnect user       mation charging him with payment of a gratuity, in
accounts and disable or delete        violation of Title 18, U.S.C., section 201(c)(1)(A). He was
accounts that are no longer           sentenced to 2 years of probation and 6 months of
needed. Further, DIT needed to        home detention and electronic monitoring. He was also
update the security plan and          fined $7,500 and an assessment of $100. The former
contingency plan for FDICconnect      employee received a bribe of approximately $16,000
to address changes in the applica-    in return for the award of a contract to an outside
tion’s technology and function-       company. The Chief Executive Officer who owned the
ality. KPMG’s report contained        company also pleaded guilty to paying a gratuity to a
five recommendations to address       government official. He was fined $5,000, sentenced to 4
these security control deficiencies.  months of home confinement and placed on 24 months
                                      of supervised release. This investigation was initiated
KPMG made one additional
                                      based on a referral from the FBI to the OIG.
recommendation intended to
improve the FDIC’s Risk Manage-


                                                                                                43
                         Strategic Goal 6:


     6                   OIG Resources Management:
                         Build and Sustain a High-Quality Staff,
                         Effective Operations, OIG Independence,
                         and Mutually Beneficial Working
                         Relationships




     W
                                                       General (IG) and OIG staff must be free both
     While the OIG’s audit, evaluation, and            in fact and in appearance from personal,
     investigation work is focused principally         external, and organizational impairments
     on the FDIC’s programs and operations,            to their independence. The OIG adheres to
     we have an obligation to hold ourselves to        the Quality Standards for Federal Offices
     the highest standards of performance and          of Inspector General, issued by the former
     conduct. We seek to develop and retain a          President’s Council on Integrity and Effi-
     high-quality staff, effective operations, OIG     ciency (PCIE) and the Executive Council
     independence, and mutually beneficial             on Integrity and Efficiency (ECIE). Further,
     working relationships with all stakeholders.      the OIG conducts its audit work in accor-
     Currently, a major challenge for the OIG          dance with generally accepted Govern-
     is ensuring that we have the resources            ment Auditing Standards; its evaluations in
     needed to effectively and efficiently             accordance with PCIE Quality Standards for
     carry out the OIG mission at the FDIC,            Inspections; and its investigations, which
     given a sharp increase in the OIG’s statu-        often involve allegations of serious wrong-
     torily mandated work brought about by             doing that may involve potential violations
     numerous financial institution failures, and      of criminal law, in accordance with Quality
     in light of the new activities and programs       Standards for Investigations established by
     that the FDIC has undertaken to restore           the former PCIE and ECIE, and procedures
     public confidence and stability in the finan-     established by the Department of Justice.
     cial system.                                      Strong working relationships are funda-
     To ensure a high-quality staff, we must           mental to our success. We place a high
     continuously invest in keeping staff knowl-       priority on maintaining positive working
     edge and skills at a level equal to the work      relationships with the FDIC Chairman, Vice
     that needs to be done, and we emphasize           Chairman, other FDIC Board members,
     and support training and development              and management officials. The OIG is a
     opportunities for all OIG staff. We also strive   regular participant at Audit Committee
     to keep communication channels open               meetings where recently issued MLR, audit,
     throughout the office. We are mindful             and evaluation reports are discussed.
     of ensuring effective and efficient use of        Other meetings occur throughout the year
     human, financial, IT, and procurement             as OIG officials meet with division and
     resources in conducting OIG audits, evalu-        office leaders and attend and participate
     ations, investigations, and other support         in internal FDIC conferences and other
     activities, and have a disciplined budget         forums.
     process to see to that end.
                                                       The OIG also places a high priority on
     To carry out our responsibilities, the OIG        maintaining positive relationships with the
     must be professional, independent, objec-         Congress and providing timely, complete,
     tive, fact-based, nonpartisan, fair, and          and high quality responses to congres-
     balanced in all its work. Also, the Inspector     sional inquiries. In most instances, this


44
communication would include semiannual           results against planned goals.
reports to the Congress; issued MLR, audit,      The OIG strongly supports GPRA and is fully
and evaluation reports; information related      committed to applying its principles of stra-
to completed investigations; comments on         tegic planning and performance measure-
legislation and regulations; written state-      ment and reporting to our operations. The
ments for congressional hearings; contacts       OIG’s Business Plan lays the basic founda-
with congressional staff; responses to           tion for establishing goals, measuring
congressional correspondence; and mate-          performance, and reporting accomplish-
rials related to OIG appropriations.             ments consistent with the principles and
The FDIC OIG is a member of the Council of       concepts of GPRA. We are continuously
the Inspectors General on Integrity and Effi-    seeking to better integrate risk manage-
ciency (CIGIE), an organization created by       ment considerations in all aspects of OIG
the IG Reform Act of 2008. We fully support      planning—both with respect to external
and participate in CIGIE activities and coor-    and internal work.
dinate closely with representatives from the     To build and sustain a high-quality staff,
other the financial regulatory OIGs. Addi-       effective operations, OIG independence,
tionally, the OIG meets with representatives     and mutually beneficial working relation-
of the GAO to coordinate work and mini-          ships, the OIG’s 2010 performance goals
mize duplication of effort and with repre-       are as follows:
sentatives of the Department of Justice,
including the FBI and U.S. Attorneys’ Offices,     •	Effectively and efficiently manage
to coordinate our criminal investigative             OIG human, financial, IT, and physical
work and pursue matters of mutual interest.          resources.

The FDIC OIG has its own strategic and             •	Ensure quality and efficiency of OIG
annual planning processes independent                audits, evaluations, investigations, and
of the Corporation’s planning process,               other projects and operations.
in keeping with the independent nature             •	Encourage individual growth and
of the OIG’s core mission. The Govern-               strengthen human capital management
ment Performance and Results Act of                  and leadership through professional
1993 (GPRA) was enacted to improve the               development and training.
management, effectiveness, and account-
                                                   •	Foster good client, stakeholder, and staff
ability of federal programs. GPRA requires
                                                     relationships.
most federal agencies, including the FDIC,
to develop a strategic plan that broadly           •	Enhance OIG risk management activi-
defines the agency’s mission and vision, an          ties.
annual performance plan that translates          A brief listing of OIG activities in support of
the vision and goals of the strategic plan       these performance goals follows.
into measurable objectives, and an annual
performance report that compares actual


                                                                                              45
             Effectively and Efficiently Manage OIG Human, Financial, IT, and Physical Resources
     1    Continued realignment of the OIG’s resources to address the need for additional investigative coverage in FDIC
          regions, sufficient resources for material loss review assignments, additional audit coverage for resolution and
          receivership work in the Dallas region, and adequate staffing for the OIG’s human resources function.
     2    Provided the FDIC OIG’s fiscal year 2011 budget submission to the House and Senate Committees on Appro-
          priations, Subcommittees on Financial Services and General Government.
     3    Coordinated with the Division of Administration to accommodate an influx of contractor staff on-site in OIG
          office space and to ensure adequate physical security of contractors and OIG staff alike.
     4    Continued to partner with DIT to ensure the security of OIG information in the FDIC computer network infra-
          structure.



                 Ensure Quality and Efficiency of OIG Audits, Evaluations, Investigations, and
                                        Other Projects and Operations
     1   Completed two internal quality control reviews of OIG audit-related activities: (1) a review of contractor tech-
         nical monitoring and (2) a follow-up review of data reliability for calculating assignment costs. Office of Audits
         also issued an annual quality monitoring summary and analysis for 2009.
     2   Coordinated with Railroad Retirement Board OIG regarding that office’s upcoming peer review of the audit
         operations of the FDIC OIG.
     3   Awarded contracts to qualified firms to provide audit and evaluation services to the OIG to enhance the
         quality of our work and the breadth of our expertise as we conduct material loss reviews, audits, and evalua-
         tions, and closely monitored contractor performance.
     4   Continued use of the IG’s feedback form to assess time, cost, and overall quality and value of MLRs, audits, and
         evaluations.
     5   Relied on OIG Counsel’s Office to provide legal advice and counsel to teams conducting MLRs, resolution and
         receivership work, and other audits and evaluations, and to support investigations of fraud and other criminal
         activity, in the interest of ensuring legal sufficiency and quality of all OIG work.
     6   Spearheaded the IG community’s audit peer review training program for OIGs government-wide to ensure a
         consistent and effective peer review process for the federal audit function.



         Encourage Individual Growth and Strengthen Human Capital Management and Leadership
                            Through Professional Development and Training
     1    Continued to support members of the OIG attending long-term graduate banking school programs
          sponsored by Stonier, the Southeastern School of Banking at Vanderbilt University, and the University of
          Wisconsin to enhance OIG staff expertise and knowledge of the banking industry.
     2    Employed college interns on a part-time basis in the OIG to provide assistance to the OIG.
     3    Arranged for a number of part-time college interns to proceed to the Student Career Experience Program,
          under which they are eventually offered permanent employment by the OIG pending successful completion
          of college coursework.
     4    Continued implementation of the IG community’s introductory auditor training sessions designed to provide
          attendees with an overall introduction to the community and enrich their understanding of fundamental
          aspects of auditing in the federal environment.




46
                              Foster Good Client, Stakeholder, and Staff Relationships
1   Maintained congressional working relationships by briefing various Committee staff on issues of interest to them; providing
    our Semiannual Report to the Congress for the 6-month period ending September 30, 2009; notifying interested congres-
    sional parties regarding the OIG’s completed material loss review, audit, and evaluation work; attending or monitoring
    FDIC-related hearings on issues of concern to various oversight committees; and coordinating with the Corporation’s Office
    of Legislative Affairs on issues of mutual interest.
2   Communicated with the FDIC Chairman, Vice Chairman, Director Curry, and other senior FDIC officials through the IG’s regu-
    larly scheduled meetings with them and through other forums.
3   Participated in numerous outreach efforts with such external groups as the Conference of State Bank Supervisors, the
    Federal Financial Institutions Examination Council, and Association of Certified Fraud Examiners to provide general infor-
    mation regarding the OIG and share perspectives on issues of mutual concern and importance to the financial services
    industry.
4   Held quarterly meetings with FDIC Directors and other senior officials to keep them apprised of ongoing OIG reviews and
    results.
5   Kept DSC, DRR, the Legal Division, and other FDIC program offices informed of the status and results of our investigative
    work impacting their respective offices. This was accomplished by notifying FDIC program offices of recent actions in OIG
    cases and providing OI’s quarterly reports to DSC, DRR, the Legal Division, and the Chairman’s Office outlining activity and
    results in our cases involving closed and open banks.
6   Participated at FDIC Audit Committee meetings to present the results of significant completed MLRs, audits, and evaluations
    for consideration by Committee members.
7   Reviewed nine proposed or revised corporate policies relating to security, training and development, equal employment
    opportunity, and administration. These included the personnel security policy for FDIC contractors, the Corporation’s policy
    on equal opportunity employment, and procedures for the non-asset defensive litigation review committee.
8   Supported the IG community by having the IG serve as Chair of the CIGIE Audit Committee and coordinating the activities of
    that group, including introductory auditor and peer review training; attending monthly CIGIE meetings and participating in
    Inspection & Evaluation Committee and Council of Counsels to the IGs meetings; providing resource assistance to other OIGs;
    and providing support to the IG community’s investigative meetings.
9   Met regularly with representatives of the OIGs of the federal banking regulators (Board of Governors of the Federal Reserve
    System, Department of the Treasury, National Credit Union Administration, Securities and Exchange Commission, Farm
    Credit Administration, Commodity Futures Trading Commission, Federal Housing Finance Agency, and Export-Import Bank)
    to discuss audit and investigative matters of mutual interest and leverage knowledge and resources.




                                       Enhance OIG Risk Management Activities
1   Held component office meetings to assess emerging issues and risk areas impacting the FDIC and the banking and financial
    services industry as a whole. Determined which assignments to add and/or modify in our Fiscal Year 2010 Business Plan.
2   Participated regularly at corporate meetings of the National Risk Committee to monitor emerging risks at the Corporation
    and tailor OIG work accordingly.
3   Provided OIG perspectives on the risk of fraud at the FDIC to the GAO. We did so in response to GAO’s responsibility under
    Statement of Auditing Standards No. 99, Consideration of Fraud in Financial Statement Audits.
4   Provided the FDIC Chairman the OIG’s 2009 assurance letter, under which the OIG provides assurance that it has made
    a reasonable effort to meet the internal control requirements of the Federal Managers’ Financial Integrity Act, Office of
    Management and Budget A-123, and other key legislation.
5   Provided the OIG’s assessment of the management and performance challenges facing the FDIC, in accordance with the
    Reports Consolidation Act of 2000. We identified the following overall areas of challenge: Restoring and Maintaining Public
    Confidence and Stability in the Financial System; Resolving Failed Institutions and Managing Receiverships; Ensuring the
    Viability of the Insurance Fund; Ensuring Institution Safety and Soundness Through an Effective Examination and Super-
    vision Program; Protecting and Educating Consumers and Ensuring an Effective Compliance Program; and Effectively
    Managing the FDIC Workforce and Other Corporate Resources.




                                                                                                                                   47
     Cumulative Results (2-year period)


                         Nonmonetary Recommendations
         April 2008 – September 2008                                                       24
         October 2008 – March 2009                                                         28
         April 2009 – September 2009                                                       12
         October 2009 – March 2010                                                         11


     Products Issued and Investigations Closed
                                                                                                50
                                                                                 47             45
     LEGEND
                                                                                                40
     	   4/08 - 9/08                             35*                                            35
     	   10/08 - 3/09                                                                           30
     	   4/09 - 9/09                        26                                                  25
                                                                          24
     	   10/09 - 3/10                                                                           20
                                                                                      18
                                 15                                                             15
                                       14                            14
                                                                                                10
                                                                                                 5
                                                                                                 0

                                MLRs, Audits &                  Investigations
                                 Evaluations
                            * Includes three audit or evaluation memoranda

     Fines, Restitution, and Monetary Recoveries
     Resulting from OIG Investigations (in millions)

     LEGEND                                                                                     400
                                            352.9


     	   4/08 - 9/08                                                                            300
     	   10/08 - 3/09
     	   4/09 - 9/09                                                                            200
     	   10/09 - 3/10
                                                                          61.2
                                                                                                100
                                                       55.1
                                                              41.8
                                                                                                     0




48
Reporting Requirements
Index of Reporting Requirements – Inspector General Act of 1978, as Amended


                                          Reporting Requirements                                                  Page

 Section 4(a)(2): Review of legislation and regulations                                                           50

 Section 5(a)(1): Significant problems, abuses, and deficiencies                                                 9-43

 Section 5(a)(2): Recommendations with respect to significant problems, abuses, and deficiencies                 9-43

 Section 5(a)(3): Recommendations described in previous semiannual reports on which corrective
                                                                                                                  50
 action has not been completed

 Section 5(a)(4): Matters referred to prosecutive authorities                                                      8

 Section 5(a)(5) and 6(b)(2): Summary of instances where requested information was refused                        56

 Section 5(a)(6): Listing of audit reports*                                                                   51-52

 Section 5(a)(7): Summary of particularly significant reports                                                    9-43

 Section 5(a)(8): Statistical table showing the total number of audit reports and the total dollar value of
                                                                                                                  53
 questioned costs*

 Section 5(a)(9): Statistical table showing the total number of audit reports and the total dollar value of
                                                                                                                  55
 recommendations that funds be put to better use*

 Section 5(a)(10): Audit recommendations more than 6 months old for which no management decision
                                                                                                                  56
 has been made

 Section 5(a)(11): Significant revised management decisions during the current reporting period                   56

 Section 5(a)(12): Significant management decisions with which the OIG disagreed                                  56



* Evaluation report statistics are shown on pages 53, 54, and 55 in accordance with the IG Reform Act of 2008.



                                                                                                                         49
     Information Required by the
     Inspector General Act of 1978,
     as Amended

     Review of Legislation and Regulations
     The OIG’s review of legislation and regulations during the reporting period focused principally on several
     legislative proposals involving the FDIC, as discussed below:
     H.R. 4173, Wall Street Reform and Consumer Protection Act of 2009, passed the House on December 11,
     2009, and was received in the Senate and referred to the Senate Committee on Banking, Housing, and Urban
     Affairs on January 20, 2010. There are three sections in this bill that could impact the FDIC OIG, as follows:
       •	Section 1220 relates to the Department of the Treasury and FDIC OIG’s involvement with the implementa-
         tion plan for the transfer of responsibilities from the OTS to the OCC and the FDIC.
       •	Section 1611 involves the establishment of a Special Deputy Inspector General within the existing FDIC
         OIG to oversee the dissolution should the FDIC be appointed as receiver for a financial company.
       •	Section 1703 establishes a Council of Inspectors General on Financial Oversight and the Council’s respon-
         sibilities for providing additional oversight of the financial regulatory system.
     The FDIC OIG worked with congressional staff on these provisions and provided extensive comments on
     Sections 1611 and 1703.
     The FDIC OIG also worked with the Senate Committee on Banking, Housing, and Urban Affairs regarding MLR
     threshold relief. S. 3217, Restoring American Financial Stability Act of 2010, includes provisions that provide
     relief from the current threshold. As the Senate continues to consider this bill, the FDIC OIG is working with
     staff to adjust the timeframes associated with these provisions.
     The FDIC OIG also coordinates with others in the IG community through the CIGIE’s Legislative Committee in
     responding to legislation impacting the IG community as a whole.



     Table I: Significant Recommendations from Previous Semiannual Reports on Which
     Corrective Actions Have Not Been Completed
     There are no significant recommendations from previous semiannual reports on which corrective actions
     have not been completed.




50
Table II: Audit Reports Issued by Subject Area

                     Audit Report                               Questioned Costs      Funds Put to
 Number and Date                     Title                    Total     Unsupported    Better Use
Supervision
MLR-10-001          Material Loss Review of FirstCity Bank,
October 5, 2009     Stockbridge, Georgia
MLR-10-002          Material Loss Review of Cape Fear
October 23, 2009    Bank, Wilmington, North Carolina
MLR-10-003          Material Loss Review of New
October 23, 2009    Frontier Bank, Greeley, Colorado
MLR-10-004          Material Loss Review of First Bank of
November 5, 2009    Beverly Hills, Calabasas, California
MLR-10-005          Material Loss Review of Westsound
December 2, 2009    Bank, Bremerton, Washington
MLR-10-006          Material Loss Review of American
December 2, 2009    Southern Bank, Kennesaw, Georgia
MLR-10-007          Material Loss Review of Strategic
December 4, 2009    Capital Bank, Champaign, Illinois
MLR-10-008          Material Loss Review of Great Basin
December 4, 2009    Bank of Nevada, Elko, Nevada
MLR-10-009          Material Loss Review of America West
December 4, 2009    Bank, Layton, Utah
MLR-10-010          Material Loss Review of Bank of
December 16, 2009   Lincolnwood, Lincolnwood, Illinois
MLR-10-011          Material Loss Review of MetroPacific
January 6, 2010     Bank, Irvine, California
MLR-10-012          Material Loss Review of Southern
January 6, 2010     Community Bank, Fayetteville, Georgia
MLR-10-013          Material Loss Review of Cooperative
January 6, 2010     Bank, Wilmington, North Carolina
MLR-10-014          Material Loss Review of the Bank of
January 21, 2010    Wyoming, Thermopolis, Wyoming
MLR-10-015          Material Loss Review of Mirae Bank,
January 21, 2010    Los Angeles, California
MLR-10-016          Material Loss Review of Millennium
January 22, 2010    State Bank of Texas, Dallas, Texas
MLR-10-017          Material Loss Review of First Piedmont
February 12, 2010   Bank, Winder, Georgia
MLR-10-018          Material Loss Review of Temecula
February 12, 2010   Valley Bank, Temecula, California




                                                                                                     51
     Table II: Audit Reports Issued by Subject Area (continued)

                              Audit Report                                    Questioned Costs      Funds Put to
      Number and Date                         Title                         Total     Unsupported    Better Use
     Supervision
     MLR-10-019              Material Loss Review of Founders
     February 12, 2010       Bank, Worth, Illinois and Rock River
                             Bank, Oregon, Illinois
     MLR-10-020              Material Loss Review of the Six
     February 12, 2010       Bank Subsidiaries of Security Bank
                             Corporation, Macon, Georgia
     MLR-10-021              Material Loss Review of Mutual
     February 26, 2010       Bank, Harvey, Illinois
     MLR-10-022              Material Loss Review of Integ-
     February 26, 2010       rity Bank, Jupiter, Florida
     MLR-10-023              Material Loss Review of First
     March 10, 2010          Coweta Bank, Newnan, Georgia
     MLR-10-024              Material Loss Review of First State
     March 10, 2010          Bank, Sarasota, Florida
     MLR-10-025              Material Loss Review of Affinity Bank,
     March 25, 2010          Ventura, California
     MLR-10-026              Material Loss Review of Mainstreet
     March 25, 2010          Bank, Forest Lake, Minnesota
     MLR-10-027              Material Loss Review of First State
     March 25, 2010          Bank, Flagstaff, Arizona
     MLR-10-028              Material Loss Review of InBank, Oak
     March 25, 2010          Forest, Illinois
     Resources Management
     AUD-10-001              Independent Evaluation of the FDIC’s
     November 10, 2009       Information Security Program - 2009
     AUD-10-002              Information Technology Security
     December 11, 2009       Controls over FDICconnect
     AUD-10-003              Verification of the FDIC’s Data Submis-
     January 6, 2010         sions through the Government-
                             wide Financial Report System as of
                             September 30, 2009
     Totals for the Period                                             $0           $0              $0




52
Table III: Evaluation Reports Issued

             Evaluation Reports & Memoranda                           Questioned Costs         Funds Put to
 Number and Date                          Title                     Total     Unsupported       Better Use
Receivership Management
EVAL-10-001             FDIC’s Loan Modification Program
February 4, 2010
Totals for the                                                 $0            $0                          $0
Period



Table IV: Audit Reports Issued with Questioned Costs

                                                                                  Questioned Costs
                                                       Number
                                                                            Total           Unsupported
A.	 For which no management decision has been              0                  0                      0
	 made by the commencement of the reporting
	 period.
B. Which were issued during the reporting period.          0                  0                      0
Subtotals of A & B                                         0                  0                      0
C.	 For which a management decision was made               0                  0                      0
	 during the reporting period.
	 (i) dollar value of disallowed costs.                    0                  0                      0
	 (ii) dollar value of costs not disallowed.               0                  0                      0
D.	 For which no management decision has been              0                  0                      0
	 made by the end of the reporting period.
	 Reports for which no management decision                 0                  0                      0
	 was made within 6 months of issuance.




                                                                                                              53
 Table V: Evaluation Reports Issued with Questioned Costs

                                                                Questioned Costs
                                     Number
                                                             Total        Unsupported
     A.	 For which no management decision has been       0    0                    0
     	 made by the commencement of the reporting
     	 period.
     B. Which were issued during the reporting period.   0    0                    0
     Subtotals of A & B                                  0    0                    0
     C.	 For which a management decision was made        0    0                    0
     	 during the reporting period.
     	 (i) dollar value of disallowed costs.             0    0                    0
     	 (ii) dollar value of costs not disallowed.        0    0                    0
     D.	 For which no management decision has been       0    0                    0
     	 made by the end of the reporting period.
     	 Reports for which no management decision          0    0                    0
     	 was made within 6 months of issuance.




54
Table VI: Audit Reports Issued with Recommendations for Better Use of Funds

                                                                     Number   Dollar Value
A.	 For which no management decision has been made by the              0           0
	 commencement of the reporting period.
B. Which were issued during the reporting period.                      0           0
Subtotals of A & B                                                     0           0
C. For which a management decision was made during the reporting       0           0
	 period.
	 (i)	 dollar value of recommendations that were agreed to by          0           0
		 management.
		    - based on proposed management action.                           0           0
		    - based on proposed legislative action.                          0           0
	 (ii)	 dollar value of recommendations that were not agreed to by     0           0
		 management.
D.	For which no management decision has been made by the end of        0           0
	 the reporting period.
	 Reports for which no management decision was made within             0           0
	 6 months of issuance.



Table VII: Evaluation Reports Issued with Recommendations for
	          Better Use of Funds

                                                                     Number   Dollar Value
A.	 For which no management decision has been made by the              0           0
	 commencement of the reporting period.
B.	 Which were issued during the reporting period.                     0           0
Subtotals of A & B                                                     0           0
C.	For which a management decision was made during the reporting       0           0
	 period.
	 (i) dollar value of recommendations that were agreed to by           0           0
		 management.
	     - based on proposed management action.                           0           0
	     - based on proposed legislative action.                          0           0
	 (ii) dollar value of recommendations that were not agreed to by      0           0
		 management.
D.	For which no management decision has been made by the end of        0           0
	 the reporting period.
	 Reports for which no management decision was made within             0           0
	 6 months of issuance.




                                                                                             55
Table VIII: Status of OIG Recommendations Without Management Decisions
During this reporting period, there were no recommendations more than 6 months old without management decisions.

Table IX: Significant Revised Management Decisions
During this reporting period, there were no significant revised management decisions.

Table X: Significant Management Decisions with Which the OIG Disagreed
During this reporting period, there were no significant management decisions with which the OIG disagreed.

Table XI: Instances Where Information Was Refused
During this reporting period, there were no instances where information was refused.

Table XII: Defense Contract Audit Agency Audits of FDIC Contractors
The DCAA provided audit services to the FDIC on a reimbursable basis. The DCAA provided the following information during this
period on reports involving FDIC contract activities.

DCAA Audit Reports Issued
During the period, the DCAA issued 3 incurred cost audit reports on contractors who do business with the FDIC. Corrective actions
taken in response to DCAA audit report recommendations usually result from negotiations between the contractors doing business
with the FDIC and the FDIC contracting officer with cognizant responsibility. The FDIC contracting officer responsible for adminis-
tering the contract negotiates recoveries with the contractor after deciding whether to agree to or reject the questioned costs and
recommendations for funds to be put to better use. The following table shows the amounts of questioned costs and funds to be put
to better use included in DCAA reports issued during the semiannual reporting period and the amounts that were agreed to during
the reporting period related to those reports.

                                                Questioned Costs                                      Funds Put to Better Use
      Amount Examined
                                        Reported               Agreed to by FDIC                 Reported               Agreed to by FDIC
         $19,172,811                    $73,049                      $26,783                         $0                          $0




     	The schedule represents DCAA contract audit assignments completed during the 6-month period ended March 31, 2010.
     	Questioned costs represent costs that DCAA has questioned because they do not comply with rules, regulations, laws, and/or contractual
     	 terms.




56
C
Congratulations and
Farewell

             Ed Slagle retired from the OIG’s Office of
             Investigations after more than 32 years
             of federal service. His career began in
             1978 as a tax technician at the Internal
             Revenue Service and then progressed
             to service as a wage and hour compli-
             ance specialist at the Department of
             Labor. Later he became an investigator
             for labor and pension issues at the
             Department of Labor. In 1984 he trans-
             ferred to the Veterans Administration
             as a criminal investigator, a position
             he held until 1991 when he joined the
             Resolution Trust Corporation (RTC) OIG
             as a criminal investigator in Kansas
             City. He later transferred to the RTC
             OIG’s Atlanta office, and upon the RTC’s
             sunset, transitioned to the FDIC OIG in
             Atlanta where he worked with distinc-
             tion for nearly 15 years, most recently
             as that office’s Special Agent in Charge.
             While maintaining a full case load, Ed
             also served as an outstanding represen-
             tative of the OIG and a highly effective
             supervisor over the past several years.
             He developed and fostered construc-
             tive working relationships with FDIC
             regional management, U.S. Attorneys’
             Offices, and fellow law enforcement
             groups. As evidence of his strong
             leadership skills, he also took on the
             mentoring role for three new agents in
             the Office of Investigations and used
             his vast experience in teaching and
             developing these new investigators—all
             in the interest of ensuring a first-class
             cadre of investigators in the FDIC OIG.




                                                          57
